September 2006
Report No. 06-022


Independent Evaluation of the FDIC’s
Information Security Program-2006




             AUDIT REPORT
                                                                                                Report No. 06-022
                                                                                                 September 2006


                                  Independent Evaluation of the FDIC’s Information
                                  Security Program-2006
                                  Results of Evaluation
Background and
Purpose of Evaluation             As a result of focused efforts over the last several years, the FDIC has
                                  made significant progress in improving its information security program
The FDIC’s mission is to          and practices. Further, additional improvements were underway at the
contribute to the stability and   time of our evaluation. Our work did not identify any significant
public confidence in the          deficiencies in the FDIC’s information security program that warrant
nation’s financial system by      consideration as a potential material weakness as defined by the Office of
insuring deposits, examining      Management and Budget. However, as shown in the table below,
and supervising financial         continued management attention is needed in key security control areas to
institutions, and managing        ensure that appropriate risk-based and cost-effective security controls are
receiverships. To achieve its     in place to secure the FDIC’s information resources in furtherance of the
mission, the FDIC relies on
                                  Corporation’s security program goals and objectives. Therefore, we
automated information systems
to collect, process, and store    concluded that the FDIC had established and implemented internal controls
vast amounts of banking and       that provided limited assurance of adequate security for its information
other sensitive information.      resources. Our report includes a number of steps that the Corporation can
Much of this information is       take to strengthen its information security program and practices.
used by financial regulators,
academia, and the public to
monitor bank performance,         Office of Inspector General (OIG) Assessment of the FDIC’s
develop regulatory policy, and    Security Program Controls
conduct research on and
analysis of important banking                       Control Families Tested         Control Families Tested That
                                     Control
issues. Ensuring the integrity,                       That Demonstrate                Warrant Management
                                      Class
availability, and appropriate                            Effectiveness                       Attention
confidentiality of this
information in an environment                     • Information Security           • Enterprise Architecture
                                   Program
of increasingly sophisticated                       Governance                     • Capital Planning
security threats and global
connectivity requires a strong,                   • Risk Assessment                • Certification, Accreditation,
                                   Management
enterprise-wide information                       • Planning                         and Security Assessments
security program.
                                                  • Contingency Planning           • Personnel Security
                                                  • Incident Response              • Physical Security and
The objective of the evaluation
was to determine the                              • Awareness and Training           Environmental Protection
effectiveness of the FDIC’s                                                        • Configuration Management
                                   Operational
information security program                                                       • Maintenance
and practices, including the                                                       • System and Information
FDIC’s compliance with the                                                           Integrity
Federal Information Security                                                       • Media Protection
Management Act of 2002
                                                  • Identification and             • Access Control
(FISMA) and related                Technical
information security policies,
                                                    Authentication                 • Audit and Accountability
procedures, standards, and        Source: 2006 FDIC OIG Evaluation of the FDIC’s Information Security Program.
guidelines.
To view the full report, go to
www.fdicig.gov/2006reports.asp
                             TABLE OF CONTENTS


BACKGROUND                                                              5
RESULTS OF EVALUATION                                                  11
PROGRAM CONTROLS                                                       13
MANAGEMENT CONTROLS                                                    18
OPERATIONAL CONTROLS                                                   22
TECHNICAL CONTROLS                                                     30

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                          34

APPENDIX II: NIST SP 800-53 CONTROLS TESTED                            42

APPENDIX III: ACRONYMS                                                 47

APPENDIX IV: GLOSSARY OF TERMS                                         49


TABLES

Table 1:   The FDIC's General Support Systems and Major Applications    7
Table 2:   OIG Assessment of the FDIC's Security Controls              12
Table 3:   Security Control Classes and Families                       36
Table 4:   Information Security Program Assurance Levels               37

FIGURES

Figure 1: Managing Enterprise Risk (The Framework)                      6
Figure 2: The FDIC's IT Security Governance                             8
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                                      Office of Inspector General




DATE:                                     September 27, 2006

MEMORANDUM TO:                            Sheila C. Bair, Chairman
                                          Federal Deposit Insurance Corporation

FROM:                                     Jon T. Rymer
                                          Inspector General


SUBJECT:                                  Independent Evaluation of the FDIC’s
                                          Information Security Program-2006
                                          (Report No. 06-022)


As required by the Federal Information Security Management Act of 2002 (FISMA), we
have completed an independent evaluation of the FDIC’s information security program
and practices. FISMA directs federal agencies to have an annual independent evaluation
performed of their information security program and practices and to report the results of
the evaluation to the Office of Management and Budget (OMB). FISMA states that the
independent evaluation is to be performed by the agency Inspector General (IG) or an
independent external auditor as determined by the IG. We issued separate audit reports
to the Chief Information Officer (CIO) and Chief Privacy Officer that contain responses
to specific sections of the July 17, 2006 OMB memorandum entitled, FY 2006 Reporting
Instructions for the Federal Information Security Management Act and Agency Privacy
Management.1 Our responses to the OMB questions, together with this independent
security evaluation report, satisfy our 2006 FISMA reporting requirements. In addition,
we plan to issue a separate report to the CIO that contains more detailed information
about the security control deficiencies discussed in this report and make appropriate
recommendations, if necessary, at that time.

The objective of our evaluation was to determine the effectiveness of the FDIC’s
information security program and practices, including the FDIC’s compliance with
FISMA and related information security policies, procedures, standards, and guidelines.
Details regarding the evaluation’s scope and methodology are presented in Appendixes I
and II, and an acronyms list is provided in Appendix III. A glossary of terms used in this
report is provided in Appendix IV.

As our report details, the FDIC has made significant progress in addressing current and
emerging security standards and guidelines developed by the National Institute of
Standards and Technology (NIST). However, continued management attention is

1
    Responses to Security-Related Questions in OMB’s Fiscal Year 2006 Reporting Instructions for FISMA and
    Agency Privacy Management, dated September 22, 2006 (Report No. 06-019) and Response to Privacy
    Program Information Request in OMB’s Fiscal Year 2006 Reporting Instructions for FISMA and Agency
    Privacy Management, dated September 22, 2006 (Report No. 06-018).
warranted in key security control areas to ensure that appropriate risk-based and cost-
effective security controls are implemented to secure the FDIC’s information resources.
Our work did not identify any significant deficiencies in the FDIC’s information security
program that warrant consideration as a potential material weakness as defined by the
OMB.2

Similar to our prior-year security evaluations, we identified key steps (listed in priority
order below) that the Corporation can take to improve the effectiveness of its information
security program controls. These steps are targeted to address the control areas in which
the opportunity to improve performance is the greatest. In many cases, the FDIC was
already working to address these steps during our evaluation field work.

    (1) Continue to place priority attention on certifying and accrediting the FDIC’s
        non-major application systems that process sensitive data.

    (2) Develop a risk-based, enterprise-wide approach for (a) monitoring user access
        privileges in information systems and (b) generating and reviewing audit logs for
        the FDIC’s inventory of information systems.

    (3) Ensure that all sensitive data stored on mobile FDIC computing devices is
        encrypted consistent with OMB’s June 23, 2006 memorandum entitled, Protection
        of Sensitive Agency Information.

    (4) Complete the FDIC’s information security risk management program methodology
        by defining procedures for performing (a) continuous monitoring of system security
        controls after accreditation and (b) contingency planning for systems.

    (5) Define more fully the FDIC’s information security standards and integrate these
        standards into the Corporation’s enterprise architecture (EA).3

    (6) Enhance the FDIC’s inventory of information systems by: (a) identifying systems
        used or operated by contractors and other organizations on behalf of the FDIC;
        (b) including interfaces between each system in the inventory and all other systems
        and networks, including those not operated by or under the control of the FDIC; and


2
    The OMB defines a significant deficiency as a weakness in an agency’s overall information systems security
    program or management control structure, or within one or more information systems, that significantly
    restricts the capability of the agency to carry out its mission or compromises the security of its information,
    information systems, personnel, or other resources, operations, or assets. In this context, the risk is great
    enough that the agency head and outside agencies must be notified, and immediate or near-immediate
    corrective action must be taken. The OMB defines a material weakness as a significant deficiency that the
    agency head determines to be significant enough to be reported outside the agency (i.e., included in the
    annual management control report to the President and the Congress).
3
    An EA is an agency-wide blueprint that defines, in both business and technological terms, an organization’s
    current and target operating environments and the organization’s transition between the two. Among other
    things, the EA defines principles and goals for, and sets direction on, information technology (IT) security.
    Although the FDIC is not legally required to develop an EA, the FDIC recognizes the value of having an EA
    and is working to implement an EA.



                                                         2
        (c) leveraging the EA to centrally manage, track, and report risk-management
        related information, such as system categorization and test and authorization dates.

    (7) Strengthen oversight of contractors with access to sensitive information and
        systems by (a) ensuring that contractor IT equipment connected to the FDIC’s
        network are routinely scanned for security vulnerabilities and the results are
        addressed in a timely manner and (b) ensuring that confidentiality agreements are
        executed in accordance with FDIC policy.

    (8) Strengthen change-control procedures related to mainframe system software to
        ensure that system software programs are formally documented and that changes
        are formally controlled and approved.

    (9) Improve the FDIC’s information security cost management practices in order to
        facilitate resource and investment decisions.

    As part of its audit of the FDIC’s calendar year 2005 financial statements,4 the
    Government Accountability Office (GAO) identified a number of information security
    control weaknesses in the FDIC’s information systems controls that are designed to
    protect the confidentiality, integrity, and availability of key financial information and
    information systems. The collective severity of these weaknesses were such that GAO
    considered them to be a reportable condition5 as of December 31, 2005 because the
    weaknesses increased the risk of unauthorized modification and disclosure of critical
    FDIC financial and sensitive personnel information, disruption of critical operations,
    and loss of assets.

    In its response to GAO’s conclusions, the FDIC acknowledged but did not share the
    GAO’s assessment of the severity of the risk impact or magnitude of the collective
    vulnerability posed by the control issues identified by GAO. However, the FDIC
    indicated that it would work with GAO to reconcile both organizations’ respective
    views and augment its information security program and practices in those instances
    where FDIC and GAO determine that changes are appropriate. In August 2006, GAO
    issued a report to the FDIC’s Board of Directors related to the 2005 Financial
    Statements.6 GAO recommended that the FDIC Chairman fully implement key
    elements of its agency-wide information security program. We will consider the
    FDIC’s actions in response to GAO’s recommendations as part of our next annual
    FISMA evaluation.

    In view of the collective risk associated with the results of our independent security
    program assessment and GAO’s financial statement audit, the FDIC should consider

4
    FINANCIAL AUDIT Federal Deposit Insurance Corporation Funds 2005 and 2004 Financial Statements,
    dated March 2006 (Report No. GAO-06-146).
5
    The reportable condition in information system controls, although not considered material, represents a
    significant deficiency in the design or operation of internal control that could adversely affect the FDIC’s
    ability to meet its internal control objectives.
6
    INFORMATION SECURITY Federal Deposit Insurance Corporation Needs to Improve Its Program, dated
    August 2006 (Report No. GAO-06-620).



                                                         3
including the information security program as an area of high priority for management
attention in the annual statement of assurance on internal accounting and administrative
control required by the Chief Financial Officers Act and Federal Managers Financial
Integrity Act (FMFIA). Such treatment will help ensure appropriate senior
management visibility in order to address information security program risks.
Appendix I contains additional information about information-security-related laws,
regulations, and other guidance.

The FDIC’s Office of Inspector General (OIG) will continue to work with the
Corporation throughout the coming year to ensure that appropriate risk-based and cost-
effective information security controls are in place to secure the Corporation’s
information resources and achieve its security goals and objectives.




                                          4
BACKGROUND

Title III of the E-Government Act of 2002, commonly referred to as FISMA, focuses on
improving oversight of federal information security programs and facilitating progress in
correcting agency information security weaknesses. FISMA requires federal agencies to
develop, document, and implement an agency-wide information security program that
provides security for the information and information systems that support the operations
and assets of the agency, including those provided or managed by another agency,
contractor, or other source. The Act assigns specific responsibilities to agency heads,
IGs, OMB, and NIST. The FDIC has determined that aspects of FISMA apply to the
Corporation.

Under FISMA, agency heads are responsible for providing information security
protections commensurate with the risk and magnitude of harm resulting from the
unauthorized access, use, disclosure, disruption, modification, or destruction of
information and information systems. Agency heads are also responsible for complying
with the requirements of FISMA and related policies, procedures, standards, and
guidelines. FISMA directs federal agencies to report annually to the OMB Director,
Comptroller General, and selected congressional committees on the adequacy and
effectiveness of agency information security policies, procedures, and practices and
compliance with FISMA. In addition, FISMA requires agencies to have an annual
independent evaluation performed of their information security programs and practices
and to report the evaluation results to OMB. FISMA states that the independent
evaluation is to be performed by the agency IG or an independent external auditor as
determined by the IG. OMB has responsibility for overseeing agency information
security policies and practices and reporting annually to the Congress on agency
compliance with FISMA requirements. OMB’s primary agency security policy is OMB
Circular No. A-130, Management of Federal Information Resources, Appendix III,
Security of Federal Automated Information Resources (OMB A-130, Appendix III),
dated November 28, 2000.7

FISMA directs NIST to develop risk-based standards and guidelines to assist agencies in
defining minimum security requirements for the non-national security systems used by
agencies.8 NIST has developed such standards and guidelines as part of its FISMA
Implementation Project and is developing additional standards and guidelines. NIST
standards and guidelines are introducing significant changes in the manner in which
federal agencies, including the FDIC, protect their information and information systems.
Figure 1, on the following page, illustrates the relationship of key NIST security
standards and guidelines. Of those NIST security standards and guidelines shown in the

7
    OMB A-130, Appendix III was last revised on February 8, 1996 and was republished on November 28, 2000.
    Various provisions of that appendix are legally binding on the FDIC.
8
    FISMA authorizes the Secretary of Commerce to make NIST standards compulsory for executive agencies to
    the extent determined necessary to improve the efficiency and security of federal information systems. The
    Secretary of Commerce exercises this authority subject to the direction of the President and in coordination
    with the OMB Director. Whether a NIST publication is legally binding upon the FDIC depends on the
    nature of the publication and the statutory basis(es) under which the publication was promulgated.



                                                        5
figure, NIST finalized Federal Information Processing Standards Publication (FIPS
PUB) 200, Minimum Security Requirements for Federal Information and Information
Systems, and published drafts of Special Publication (SP) 800-53A, Guide for Assessing
the Security Controls in Federal Information Systems; and SP 800-18 Revision 1, Guide
for Developing Security Plans for Federal Information Systems, following our 2005
evaluation.9 Security program officials should consider whether it is prudent for their
agencies to implement draft NIST standards and guidelines (or portions thereof) before
the standards and guidelines become effective.

Figure 1: Managing Enterprise Risk (The Framework)
                                                                          FIPS PUB 199 / SP 800-60
                      FIPS PUB 200/SP 800-53                                                                                      SP 800-37
                                                                         STARTING POINT
                       Security Control                                       Security                                     Security Control
                          Selection                                        Categorization                                    Monitoring
      Selects minimum-security controls (i.e., safeguards and      Defines category of information system     Continuously tracks changes to the information system
        countermeasures) planned or in place to protect the         according to potential impact of loss      that may affect security controls and assesses control
                      information system                                                                                           effectiveness
               SP 800-53 / FIPS PUB 200 / SP 800-30                                                                               SP 800-37

                       Security Control                                                                                         System
                         Refinement                                                                                          Authorization
     Uses risk assessment to adjust minimum control set based on                                              Determines risk to agency operations, agency assets, or
       local conditions, required threat coverage, and specific                                                individuals and, if acceptable, authorizes information
                         agency requirements                                                                                     system processing
                                                                                                                     SP 800-53A /SP 800-26/ SP 800-37
                              SP 800-18
                                                                                SP 800-70

                       Security Control                                                                                    Security Control
                        Documentation                                     Security Control                                   Assessment
                                                                          Implementation
         In system security plan, provides an overview of the                                                   Determines the extent to which the security controls are
         security requirements for the information system and        Implements security controls in new or
                                                                                                                  implemented correctly, operating as intended, and
          documents the security controls planned or in place       legacy information systems; implements
                                                                                                                 producing desired outcomes with respect to meeting
                                                                        security configuration checklists
                                                                                                                                security requirements



Source: NIST.

Corporate policies and procedures related to the internal operation of the FDIC that affect
more than one FDIC division or office are published through the FDIC Directives
System. In addition to using other corporate-wide policies and procedures, the FDIC
uses the Directives System to issue information security policy, procedure, and guidance
of FDIC-wide interest. The FDIC’s Division of Administration (DOA) administers the
FDIC Directives Management Program, including the review of proposed directives for
conformance to editorial standards, distribution of final directives, documentation of the
change process for directives, and maintenance of current and historical versions of the
corporate directives. The FDIC’s Division of Information Technology (DIT) has
established and administers additional internal policies and procedures related to DIT
operations.




9
    NIST issues information security standards as FIPS PUBs and information security guidance as Special
    Publications (SP). Appendix I provides additional information about FIPS PUBs and SPs, including the
    applicability of these publications to the FDIC.



                                                                                   6
FDIC Systems and Applications

The FDIC relies extensively on information systems to support its business operations.
DIT maintains 8 general support systems10 that provide basic processing and
communications support for the 279 business application systems11 in the Corporation’s
application inventory. The FDIC’s business applications collect, process, store, and
distribute mission-critical information, such as personnel and bank data, in support of the
Corporation’s three primary program areas (Insurance, Supervision and Consumer
Protection, and Receivership Management). The FDIC has classified seven of the
business application systems as major applications.12 Table 1 identifies the FDIC’s
general support systems and major applications.

Table 1: The FDIC's General Support Systems and Major Applications
                           Mainframe
                           Remote Access
                           Voice/Video
     General Support       Mid-range Servers
        Systems            Local Area Network/Wide Area Network (LAN/WAN)
                           Windows 2000 Servers
                           Public Key Infrastructure
                           Personal Systems
                           New Financial Environment
                           Legal Integrated Management System
                           Assessment Information Management System II
        Major
      Applications         Risk-Related Premium System
                           Virtual Supervisory Information on the Net
                           Receivership Liability System
                           FDICconnect
Source: DIT risk management inventory as of August 29, 2006.




10
   OMB A-130, Appendix III, defines a general support system as an interconnected set of information
   resources under the same direct management and that shares common functionality. A system normally
   includes hardware, software, information, applications, communications, and people.
11
   According to the Application Systems Baseline Inventory management report as of July 31, 2006. The
   August 29, 2006 DIT Information Security Staff (ISS) risk management inventory, used for FISMA
   reporting, identified 165 FDIC information systems—150 systems from the Applications Systems Baseline
   Inventory, 8 general support systems, and 7 contractor systems not included in the Application Systems
   Baseline Inventory. According to ISS, the remaining 129 systems of the Application Systems Baseline
   Inventory were no longer in service, or were tools, utilities, configurations, or other objects that were not
   application systems and, therefore, were not included in the ISS risk management inventory.
12
   OMB A-130, Appendix III, defines a major application as one that requires special attention to security due
   to the risk and magnitude of harm resulting from the loss, misuse, or unauthorized access to, or modification
   of, the information in the application.



                                                       7
Information Technology Security Governance

Several key components comprise the FDIC’s IT security governance structure. As
illustrated in Figure 2, these components include the FDIC Chairman and Board of
Directors; CIO; Chief Operating Officer (COO); Chief Financial Officer (CFO); and the
Directors of DIT, DOA, and other divisions and offices that own information systems.
The Chairman and Board of Directors are ultimately responsible for the security of the
FDIC’s information
and information            Figure 2: The FDIC's IT Security Governance
systems. The CFO
and CIO co-chair a                                             Chairman and Board of Directors

Capital Investment            Office of Inspector General                                            Chief Information Officer
Review Committee                                                                                    Chief Information Security Officer
(CIRC), which
reviews and monitors
capital projects,              Chief Financial Officer              Chief Operating Officer                      General Counsel

including IT projects.                                    Director, Division of Supervision & Consumer
                                                                                                                   Legal Division
The CIO has                   Director, Division of
                                                                            Protection
                                                          Director, Division of Information Technology
responsibility for the               Finance               Director, Division of Insurance & Research
                                                               Director, Division of Resolutions &
FDIC’s information                                                         Receiverships
                                                               Director, Division of Administration
security program,
including FISMA
compliance. The             Source: OIG Analysis of FDIC’s roles and responsibilities.
CIO also serves as
the FDIC’s Chief Privacy Officer and Director, DIT. In addition, a CIO Council,
composed of senior agency managers, advises the CIO on all aspects of IT, including
security. The COO manages the FDIC’s operating divisions, including DIT and DOA.
DIT is responsible for providing a secure IT infrastructure and systems. DOA is
responsible for providing physical and personnel security for the FDIC. Other division
and office heads are responsible for ensuring that systems under their ownership or
control conform to the FDIC’s security requirements. The OIG performs audits and
evaluations of the FDIC’s information security controls, including the annual
independent evaluation of the Corporation’s security program required by FISMA.

The CIO has assigned primary responsibility for planning, developing, and implementing
the FDIC’s information security program and operations to an Associate Director in DIT,
who reports directly to the CIO. In addition, the FDIC has established eight Information
Security Managers (ISMs) within its program divisions and offices to ensure a business
focus on information security. The responsibilities of ISMs include promoting security
awareness, providing security management and technical advice on behalf of their
divisions and offices, and assessing the level of security needed and in place in FDIC’s
system’s and applications. DIT’s operating and capital investment budget for calendar
year 2006 is approximately $191 million, of which approximately $16 million related to
IT security.

DOA’s Security Management Section is responsible for administering the FDIC's
physical and personnel security programs. Physical security includes activities such as


                                                                   8
badging employees, contractors, and visitors and protecting employees, visitors, and
facilities from internal and external threats such as fire, theft, vandalism, sabotage, and
terrorist activities. Personnel security includes activities such as performing credit
checks, fingerprint checks, and background investigations of FDIC employees and
contractors. The Security Management Section is also responsible for managing,
directing, and testing the FDIC’s Emergency Preparedness Program, which includes the
FDIC’s Emergency Response Plan and the Business Continuity Plan (BCP). DIT and
DOA coordinate on relevant corporate security matters.

Environmental factors also impacted information security at the FDIC during the past
year. For example, following our 2005 security evaluation, the FDIC vacated 3 leased
office buildings in Washington, D.C., and moved about 750 employees and contractors to
a newly completed expansion of its Arlington, Virginia, facility. In addition, the FDIC
has established a new disaster recovery data center to provide the Corporation with a
more robust disaster recovery architecture and full control over its disaster recovery
capability. These areas presented additional challenges in physical security for the
FDIC’s information security.

According to the June 2006 DIT Monthly Status Report, DIT completed a pilot project, in
June 2006, to apply the principles of the Control Objectives for Information and related
Technology (COBIT®)13 to the FDIC’s IT processes. As part of the project, DIT
developed a new, automated risk assessment and process maturity tool that focuses on
IT-specific processes and control objectives. DIT completed an initial mapping of its
organization and functions to the COBIT® framework and is now updating management
control plans to reflect a process orientation to replace its former organizational and
functional orientation. The COBIT® approach recognizes that many IT responsibilities
are shared across the organization and must be treated in an enterprise-wide manner.
Further, DIT is identifying process owners who will be charged with understanding and
monitoring the internal controls over an entire process rather than those that fall within
their organizational boundaries.

Prior-Year Security Control Evaluations

In previous years, based on our analysis of long-standing requirements in security-related
statutes, policies, and guidance and consideration of the FDIC’s business and IT
environment, we identified key management control areas associated with the FDIC’s
information security program. For each of the management control areas, we provided an
assessment in terms of the level of assurance that the management control provided
adequate security over the FDIC's information resources. Using each of the management
control assessments as a basis and considering associated risks, we evaluated the
Corporation’s overall information security program and compared it to previous security
evaluation results. In this manner, we were able to evaluate the FDIC’s progress in
strengthening its information security program and practices.

13
     COBIT® is an IT governance framework and supporting toolset that allows managers to bridge the gap
     between control requirements, technical issues, and business risks. COBIT® enables clear policy
     development and good practice for IT control throughout organizations.



                                                       9
Federal security control requirements and assessment methodologies have changed
dramatically in recent years in response to new NIST security standards and guidelines.
As a result, we modified our prior-year security program assessment methodology to be
consistent with the security control framework defined in FIPS PUB 200 for protecting
the confidentiality, integrity, and availability of information and information systems.
Additionally, NIST SP 800-53, Recommended Security Controls for Federal Information
Systems, builds upon FIPS PUB 200 by defining a framework comprised of three general
classes of security controls (i.e., management, operational, and technical) that collectively
contain the 17 security control families identified in FIPS PUB 200.14 We included one
additional control class (i.e., program) in our assessment methodology based on our
research of relevant security-related statutes, regulations, policies, and guidelines. Due to
the magnitude of the changes in our assessment methodology, we determined that a direct
comparison of our current year results to prior year results would not be performed this
year. Appendixes I and II provide a detailed description of our new security program
assessment methodology.




14
     Federal agencies must meet the minimum security requirements defined in FIPS PUB 200 through the use of
     the controls in SP 800-53. The applicability of these publications to the FDIC has not been determined.



                                                      10
RESULTS OF EVALUATION

The FDIC has made significant progress in recent years in addressing the information
security requirements of FISMA and NIST, and additional security control improvements
were underway at the time of our evaluation. This progress is noteworthy given the
considerable increase in security-related requirements. In particular, the FDIC has
certified and accredited all but one of its major applications15 and general support
systems consistent with NIST security standards and guidelines. Additionally, the FDIC
had revised its information security-risk management methodology in June 2006 to
achieve cost-efficiencies in its certification and accreditation program. Further, the FDIC
has established a new organizational structure as part of its IT program transformation,
consolidated many of its IT security-related contracts, and implemented a new corporate
IT disaster recovery capability. These accomplishments are notable; however, continued
management attention is warranted in a number of key security control areas to ensure
that appropriate risk-based and cost-effective security controls are in place.

We structured the results of our security program assessment according to the security
control framework defined in FIPS PUB 200 and SP 800-53. We included one additional
control class (i.e., program) in our results based on our research of relevant security-
related statutes, regulations, policies, and guidelines.

Based on our security program assessment, we concluded that the FDIC’s program,
management, operational, and technical security controls collectively provided limited
assurance of adequate security over corporate information resources. However, our work
did not identify any significant deficiencies in the FDIC’s information security program
that warrant consideration as a potential material weakness as defined by the OMB.16
Table 2, on the following page, summarizes our assessment results based on the security
control testing we performed.17




15
   The CIO provided the FDIC’s New Financial Environment system with an interim authorization to operate
   while the FDIC addresses security risks identified during the certification and accreditation process.
   Information systems are not certified and accredited during the interim authorization period.
16
   FISMA requires agencies to report any significant deficiency in a policy, procedure, or practice as a material
   weakness in reporting under the FMFIA. FMFIA requires agencies to evaluate their internal control systems
   on an annual basis and to report the results of the evaluation, along with any material weaknesses and plans
   for corrective actions, to the President and the Congress. These requirements were made applicable to the
   FDIC by the Chief Financial Officers Act of 1990.
17
   Our evaluation did not include an assessment of the System and Communications Protection or the Systems
   and Services Acquisition control families. Appendix II describes the security control testing we performed
   within each control family.



                                                       11
Table 2: OIG Assessment of the FDIC's Security Controls

   Control          Control Families Tested That              Control Families Tested That
    Class            Demonstrate Effectiveness               Warrant Management Attention

                • Information Security Governance        • Enterprise Architecture
 Program
                                                         • Capital Planning

                • Risk Assessment                        • Certification, Accreditation, and
 Management
                • Planning                                 Security Assessments

                • Contingency Planning                   • Personnel Security
                • Incident Response                      • Physical Security and Environmental
                • Awareness and Training                   Protection
 Operational                                             • Configuration Management
                                                         • Maintenance
                                                         • System and Information Integrity
                                                         • Media Protection

                • Identification and Authentication      • Access Control
 Technical
                                                         • Audit and Accountability
Source: 2006 OIG Evaluation of the FDIC’s Information Security Program.




                                                 12
PROGRAM CONTROLS

Program controls define an enterprise-wide framework for planning, directing, and
controlling resources to achieve agency security objectives. Based on our analysis of
relevant security-related statutes, regulations, policies, standards, and guidelines, we
identified three program control families to include in our FISMA evaluation this year:
Information Security Governance, Enterprise Architecture, and Capital Planning. In
summary, the controls we tested in the area of Information Security Governance were
effective. However, the controls we tested related to Enterprise Architecture and Capital
Planning warranted management attention.

Information Security Governance

Information security governance involves the implementation of an enterprise-wide
control structure that provides management with reasonable assurance that its security
goals and objectives are being achieved. Governance consists of enterprise-wide security
program policies and procedures that define key roles and responsibilities and monitoring
to assess whether security controls are achieving intended results. FISMA defines
specific responsibilities and authorities for agency heads,18 senior agency officials, and
CIOs. Among those responsibilities are requirements for the CIO to develop and
maintain an information security program and report annually to the agency head on the
effectiveness of the program and progress of remedial actions.

The FDIC has appointed a permanent CIO with corporate accountability and authority for
information security, a senior agency information security officer who reports directly to
the CIO, and a CIO Council composed of senior agency managers who advise the CIO on
all aspects of IT. The FDIC has established a number of policies, procedures, and
guidelines that generally define the security roles and responsibilities of corporate
officials and contractor personnel. In addition, DIT published a new Information Security
Strategic Plan, and the CIO made periodic presentations to senior agency officials,
including the FDIC Audit Committee, on corporate information security initiatives and
efforts to remediate information security weaknesses.

Following our 2005 security evaluation, DIT also began implementing a COBIT®-based
internal control review program and included six security-related metrics in its divisional
performance reports. Such control improvements are important for ensuring that
corporate security goals and objectives are attained. To further enhance its information
security governance, the FDIC should consider additional measures. Specifically, the
FDIC can promote greater corporate awareness of security roles and responsibilities by
formally coordinating through DOA on security-related policies, procedures, and
memoranda issued by divisions, offices, and corporate committees. We noted that some


18
     For the purposes of our evaluation, we consider the FDIC’s Chairman to be the head of the Corporation.
     Nevertheless, the FDIC’s Board of Directors, by statute, has overall responsibility for managing the
     Corporation. The Board consists of five members: the Chairman, Vice Chairman, Director, Director of
     the Office of Thrift Supervision, and Comptroller of the Currency.


                                                      13
internal DIT security policies and procedures posted on its internal Web site defined
security roles and responsibilities of personnel in other FDIC divisions and offices.

While the FDIC has components of a sound information security governance structure in
place, such as the CIRC and CIO Council, the Corporation could also benefit from clearly
articulating overall information security governance roles, responsibilities, and
relationships, including those of senior agency management. Draft SP 800-100, dated
June 2006, entitled, Information Security Handbook: A Guide for Managers, suggests
that agencies should integrate their information security governance activities with the
overall agency structure and activities by ensuring appropriate participation of agency
officials in overseeing implementation of information security controls throughout the
agency. Further, new and evolving security requirements and recent highly publicized
data security breaches involving federal agencies underscore the importance of senior
management oversight of security. Industry research also suggests that a powerful
approach to achieving effective integration of enterprise security risk management is
implementing a business-focused “council” of senior organization leaders to provide
governance of security program activities.

Enterprise Architecture

An EA defines, in business and technological terms, an organization’s current and target
operating environments, including its IT security architecture. Effectively representing
security information in an EA ensures that security is adequately incorporated into
agency system life-cycle processes, as required by FISMA. In addition, FISMA requires
agencies to develop and maintain an inventory of major information systems, which is a
fundamental component of an agency EA.

The FDIC has taken a number of important steps toward full implementation of a
corporate-wide EA. Of particular note, the FDIC has established an EA policy and EA
governance structure, adopted a system development life-cycle (SDLC) methodology,19
and developed an EA repository to store, classify, and organize its EA data (including
security data). Additionally, the FDIC hired a Deputy Director, Enterprise Technology
Branch, in May 2006 and a Chief Enterprise Architect in July 2006 to further its EA
program.

While these steps are positive, more work remains to fully define the FDIC’s IT security
architecture and use this information as part of an applied EA. DIT officials indicated
that they were working to update two key EA components (the FDIC Technical
Reference Model20 and Security Standards Profile21) and integrate them into the EA
repository. Once completed, DIT will need to define procedures for the development,

19
   The FDIC’s Rational Unification Process (RUP®) SDLC methodology includes FDIC-specific security
   requirements applicable to each phase of the development of an IT project.
20
   The Technical Reference Model identifies and describes, among other things, the security services used
   throughout the agency.
21
   The Security Standards Profile identifies the security standards specific to the security services (such as
   access control and authentication) specified in the agency’s EA.



                                                         14
maintenance, and use of its EA repository. Such procedures will provide assurance that
information systems are consistent with an approved security architecture.22 The FDIC
should leverage its existing EA repository to centrally manage, track, and report risk-
management-related information, such as security categorizations and test and
authorization dates. Further, the FDIC needed to update its inventory of information
systems to identify contractor systems and systems’ interfaces with all other systems or
networks, including those not operated by or under the control of FDIC, as required by
FISMA. Once fully implemented, the EA repository is expected to provide an
automated, comprehensive, accurate, and dynamic system inventory and baseline of the
FDIC’s approved IT security architecture.

On June 1, 2006, the Federal CIO Council published The Federal Enterprise Architecture
Security and Privacy Profile, version 2.0. This profile can provide the FDIC with
valuable guidance on incorporating security into the FDIC’s EA.

Capital Planning

OMB Circular A-130 defines the capital planning and investment control process as the
ongoing process for identifying, selecting, controlling, and evaluating IT investments.23
The circular states that investments in new or existing information systems must
demonstrate that the cost of security controls are understood and explicitly incorporated
into the life-cycle planning of the overall system. The circular also states that the costs of
system security controls must be commensurate with the risk and magnitude of harm that
could result from the loss, misuse, unauthorized access to, or modification of the
information stored or flowing through the system. In addition, the OMB has issued
policy and guidance requiring agencies to (1) integrate security into the life cycle of their
systems development, modernization, and enhancement efforts and (2) ensure steady-
state operations meet existing security requirements before new funds are spent on
systems development, modernization, or enhancements.24 FISMA states that agency
heads are responsible for ensuring that information security management processes are
integrated with agency strategic and operational planning.

The FDIC established and implemented a number of key controls for integrating security
into the life-cycle planning and management of its capital IT investments. Specifically,
the FDIC has an Information Technology Strategic Plan, which includes a key goal
related to information security, and published an Information Security Strategic Plan in
2006 to help ensure that security is integrated into the FDIC’s strategic and operational
planning. Also, the FDIC has developed a formal CPIM program to plan and manage its

22
   Recent GAO and OIG audits identified internal control weaknesses relating to security policies and standards
   that had not been adequately incorporated into the design of FDIC information systems.
23
   The FDIC is voluntarily implementing (i.e., is not required by statute) a capital planning and investment
   control process, referred to as the capital planning and investment management (CPIM) process.
24
   Such OMB policy and guidance includes, but is not limited to, Circular No. A-11, Preparation, Submission,
   and Execution of the Budget, and Memoranda M-00-07, Incorporating and Funding Security in Information
   Systems Investments; and M-06-19, Reporting Incidents Involving Personally Identifiable Information and
   Incorporating the Cost for Security in Agency Information Technology Investments.



                                                      15
capital IT investments; established corporate committees25 to evaluate whether
information and physical security is adequately addressed in proposed capital IT
investments; and established a series of accounting codes in its accounting system to
identify and track certain security-related costs. These accomplishments are notable;
however, more work is needed to ensure that security is fully integrated into the life-cycle
management of the FDIC’s IT investments.

At the time of our evaluation, the FDIC was working to define procedures in its RUP®
systems development methodology and related guidance for project-level reporting and
interaction with the FDIC Enterprise Architecture Board.26 Such procedures will provide
assurance that security controls being considered for capital investment projects are
adequately evaluated for consistency with the FDIC’s security architecture. Regarding
security costs, the FDIC estimates and tracks certain security costs, such as the costs of
performing security testing and evaluation (ST&E) (i.e., security assessments), associated
with its capital IT investments27 as part of its CPIM process. However, as we have
reported in our prior-year security evaluation reports, the FDIC’s budget formulation
process differs from the processes followed by other agencies that are bound by the
federal appropriations process. The FDIC devotes less attention to security program cost
management than required at appropriated agencies. For example, the FDIC generally
does not, and is not required to:

     •   Identify and track security program costs consistent with OMB Circular A-11,
         Preparation, Submission, and Execution of the Budget; and SP 800-65,
         Integrating IT Security Into the Capital Planning and Investment Control
         Process.
     •   Estimate the resources required to remediate individual security weaknesses on
         Plans of Action and Milestones (POA&Ms) as described in OMB’s FISMA
         reporting instructions.
     •   Allocate security program costs to its major IT investments.28

We plan to work with the Corporation in the coming year to explore measures that the
FDIC can take to strengthen its security cost management practices. Such measures may



25
   The CIRC and the CIO Council have responsibilities for reviewing, recommending, and monitoring
   corporate IT investments.
26
   The Board is responsible for recommending cost-effective and efficient corporate solutions by evaluating the
   degree to which proposed projects align with the target EA.
27
   The FDIC generally defines capital investments as projects that have a total investment budget of $3 million
   or more and other projects deemed to have significant corporate impact. The FDIC prepares a business case
   containing an aggregate security cost estimate for each capital investment. However, the security cost
   estimates are used for informational purposes only and are not determined through an analysis of historical
   costs. At the close of our evaluation, the FDIC was managing three capital investment projects.
28
   NIST SP 800-65 defines a major IT investment as, among other things, a system or investment that requires
   special management attention because of its importance to an agency’s mission or is an integral part of the
   agency’s EA. The financial justification for one such project at the FDIC, the Deposit Insurance Reform
   project, did not identify how much of the $9.6 million cost estimate related to information security.



                                                      16
include, for example, the development of written guidance to ensure that IT security costs
are consistently identified, tracked, and reported at both the IT project and corporate
levels.




                                            17
MANAGEMENT CONTROLS

Management controls are the safeguards or countermeasures related to an information
system that focus on the management of risk and system security. SP 800-53 divides
management controls into four control families: Risk Assessment; Planning; System and
Services Acquisition; and Certification, Accreditation, and Security Assessments. In
summary, we found that the controls we assessed in the areas of Risk Assessment and
Planning are effective. However, the controls assessed in the area of Certification,
Accreditation, and Security Assessments warrant management attention. Due to our
limited testing of System and Services Acquisition controls, we did not assess this control
family as part of our current-year work.

Risk Assessment

Risk is the probability of an adverse event occurring. Risk assessment involves the
implementation of policies, procedures, and practices for categorizing information and
systems, performing and updating system risk assessments, and performing regular
system vulnerability scanning. Under FISMA, agencies are responsible for providing
security protections commensurate with the risk and magnitude of harm resulting from
the unauthorized access, use, disclosure, disruption, modification, or destruction of
information and information systems.

The FDIC developed and implemented risk assessment policies and procedures for
FDIC-owned and operated systems that were generally consistent with NIST security
standards and guidelines. Regarding its LAN/WAN system, the FDIC was scanning
LAN/WAN equipment for security vulnerabilities on a regular basis and taking
appropriate remedial actions. In addition, our independent testing of a sample of
LAN/WAN routers and switches found that their security configurations were generally
consistent with defined security baseline configurations.

Following our 2005 security evaluation, DIT developed procedures for performing
monthly vulnerability scans of contractor-owned computers connected to the FDIC’s
network. We noted that DIT performed monthly vulnerability scans of such contractor-
owned computers through March 2006 but that the scans had not been performed in April
or May 2006. In addition, some, but not all, contractor-owned computers connected to
the network were scanned in June and July 2006. We spoke with DIT officials about this
matter and learned that contractor-owned computers were not scanned during the
referenced periods due to a technical error. The FDIC is heavily dependent on
contractors to provide IT development and support activities and has recently sought to
physically locate contractor staff in FDIC facilities to reduce costs and security risks.
The FDIC can achieve greater security assurance by ensuring that all contractor-owned
computers connected to the network are identified and scanned for vulnerabilities on a
monthly basis as described in DIT’s IT security self-assessment procedures.




                                             18
Planning

Planning involves the implementation of policies, procedures, and practices for
developing system security plans. Security plans provide an overview of system security
requirements and describe the security controls in place or planned for meeting those
requirements. Planning also involves establishing rules that describe user responsibilities
and expected behavior related to system usage, as well as conducting system privacy
impact assessments (PIA).29

The FDIC’s security planning policies and procedures were generally consistent with
NIST security standards and guidelines. However, guidance for preparing system
security plans should be enhanced to require that security plans describe how common
security controls30 are considered in the security certification and accreditation (C&A)
process described later in this report. ST&E of common security controls are performed
separately from ST&E of application and general support system security controls.
Therefore, enhancing guidance for preparing system security plans would provide greater
assurance that all relevant risks are considered when accrediting an application or system
and promote efficiency because common controls are assessed in separate ST&Es.
Regarding PIAs, the FDIC has developed procedures for performing PIAs of its systems
containing information in an identifiable form.31 As reported in our Audit Report
No. 06-018, the FDIC had completed PIAs on 43 of the 46 information systems it
identified as containing information in an identifiable form. PIAs for the remaining
systems, as well as efforts to identify additional systems, were planned or underway at
the close of our audit.

System and Services Acquisition

System and services acquisition involves allocating resources to protect information
systems, implementing an SDLC methodology that addresses security, and including
security requirements and/or specifications in systems acquisitions. System and services
acquisition also involves developing systems documentation, enforcing software usage
restrictions, and ensuring proper security engineering principles, configuration
management, and testing in applications systems development projects.



29
   PIAs are required under the E-Government Act of 2002 as implemented by OMB’s September 26, 2003
   memorandum (M-03-22) entitled, OMB Guidance for Implementing the Privacy Provision of the
   E-Government Act of 2002. PIAs must address the type of information being collected from individuals;
   why the information is being collected; the intended use of the information; with whom the information will
   be shared; which notice or opportunities for consent would be provided to individuals regarding the
   information that is collected and how the information is shared; how the information will be secured; and
   whether a system of records is being created under the Privacy Act.
30
   Common security controls can be applied to one or more information systems.
31
   OMB defines “information in an identifiable form” as information in a system or on-line collection that
   directly identifies an individual (e.g., name, address, Social Security number or other identifying code,
   telephone number, e-mail address, etc.) or by which an agency intends to identify specific individuals in
   conjunction with other data elements.



                                                      19
Although we performed limited work in the area of system and services acquisition for
this evaluation, we noted that the FDIC had established policies and procedures in key
system and services acquisition areas. However, the FDIC needed to update Circular
1320.3, Systems Development Life Cycle (SDLC) Version 3.0, dated July 17, 1997, to be
consistent with the FDIC’s Rational Unified Process (RUP®) SDLC methodology
established in 2004.32 RUP® is a key control for ensuring that security is integrated into
the life-cycle management of the FDIC’s information systems.

Certification, Accreditation, and Security Assessments

The C&A of federal information systems is critical to securing the government’s
operations and assets. Certification involves the evaluation of an information system’s
management, operational, and technical security controls. Accreditation involves a
senior agency official’s authorization of an information system to operate, including
acceptance of any residual risk associated with operating the system. ST&E is performed
in support of C&A. OMB requires agencies to certify and accredit their information
systems in accordance with federal security policies, standards, and guidelines. In
addition, the OMB has placed a high priority on fully certifying and accrediting federal
information systems.

In our-prior year security evaluation, we reported that the FDIC had established C&A
program controls that were generally consistent with NIST security standards and
guidelines but that improvements in some areas were needed. In February 2006, we
issued a separate audit report recognizing the significant strides that the FDIC had made
in developing its C&A program in response to emerging NIST requirements.33 Our
report also identified opportunities for the FDIC to further strengthen its C&A policies,
procedures, and guidelines. In June 2006, DIT revised its risk management methodology
to achieve cost-efficiencies in its C&A processes and ensure alignment with
NIST-recommended security standards and guidelines. At the close of our evaluation,
DIT was working to complete revisions to its IT security risk management methodology,
including the development of procedures for performing (a) continuous monitoring of
systems after accreditation and (b) contingency planning of its information systems.
Such procedures are critical to ensuring risk-based and cost-effective security oversight
of the FDIC’s information systems.

In our prior-year security evaluation, we reported that the FDIC had fully certified and
accredited one system and granted Interim Authorizations to Operate (IATO) for four
additional systems. At the close of our current year evaluation, the FDIC had fully
certified and accredited 14 of its 15 major applications and general support systems
consistent with NIST security standards and guidelines. Such an accomplishment is
notable. Nevertheless, more work remains to ensure that the remaining 152 FDIC
information systems subject to C&A, some of which process sensitive agency
information, are certified and accredited.

32
   RUP® is a vendor-provided methodology that helps ensure security is considered and implemented
   throughout the SDLC, which includes multiple check points for security testing.
33
   The FDIC’s Security Certification and Accreditation Program, dated February 2006 (Report No. 06-007).



                                                    20
Additionally, DIT needed to modify its POA&M procedures to ensure that all relevant IT
security deficiencies are incorporated into or accompany system-level POA&Ms,
including deficiencies identified in GAO, OIG, and any other security reviews. Current
C&A guidelines provide that only ST&E weaknesses34 are recorded and tracked in
system-level POA&Ms.35 Our analysis of the LAN/WAN and mainframe POA&Ms
confirmed that DIT had not included in system-level POA&Ms those deficiencies
reported by the GAO. Such deficiencies are tracked separately in the FDIC’s Internal
Risks Information System. Our assessment of the LAN/WAN and mainframe POA&Ms
found that ST&E weaknesses were being properly tracked through remediation.
However, the inclusion or accompaniment of GAO or OIG findings within the
system-level POA&M process would benefit the system owners as issues are aggregated,
tracked centrally, and reviewed monthly as part of the FDIC’s existing C&A procedures.




34
   An ST&E weakness is a system deficiency identified during a security assessment of the system security
   controls.
35
   OMB’s October 17, 2001 memorandum (M-02-01) entitled, Guidance for Preparing and Submitting Security
   Plans of Action and Milestones, (and subsequent guidance) states that POA&Ms should reflect consolidation
   with, or be accompanied by, other agency plans to correct security weaknesses found during any review done
   by, for, or on behalf of the agency. Such reviews include GAO audits, financial system audits, FISMA
   reviews, and critical infrastructure vulnerability assessments. The applicability of OMB’s POA&M-related
   memoranda, including M-02-01, is under consideration by the FDIC.



                                                     21
OPERATIONAL CONTROLS

Operational controls are the safeguards and countermeasures for an information system
that are primarily implemented and executed by individuals (as opposed to information
systems). Operational controls include nine control families: Personnel Security,
Physical and Environmental Protection, Contingency Planning, Configuration
Management, Maintenance, System and Information Integrity, Media Protection, Incident
Response, and Awareness and Training. In summary, we found the controls that we
tested in the areas of Contingency Planning, Incident Response, and Awareness and
Training were effective. However, the controls we tested related to Personnel Security,
Physical Security and Environmental Protection, Configuration Management,
Maintenance, System and Information Integrity, and Media Protection warrant
management attention.

Personnel Security

Personnel security involves the implementation of policies, procedures, and practices for
assigning risk designations to positions, screening individuals for those positions, and
ensuring that systems access is terminated when personnel leave an agency or are
transferred. Personnel security also involves ensuring that appropriate access agreements
such as nondisclosure and conflict of interest agreements are in place for employees and
contractors and implementing a formal sanctions process for personnel that fail to comply
with security policies and procedures.

The FDIC has established personnel-related policies and procedures for its employees
and contractors that were generally adequate. As part of our evaluation, we judgmentally
selected 30 current FDIC employees and verified that their background investigations
were commensurate with their positions’ risk designations reflected in the FDIC’s
Corporate Human Resources Information System. In addition, we judgmentally selected
15 recently-separated FDIC employees and verified that a completed Pre-Exit Clearance
Record for Employees was on file for all 15 former employees.36 In addition, DOA was
working to address two open recommendations related to personnel security that were
contained in a prior OIG audit report.37

A key area of risk related to personnel security involves contractor confidentiality
agreements. The FDIC’s Acquisition Policy Manual (APM) requires contractors and
subcontractors to complete a Contractor Confidentiality Agreement when such
employees have access to confidential information, work on-site at the FDIC, or have

36
   FDIC Circular 2150.1, Pre-Exit Clearance Procedures for FDIC Employees, defines procedures for
   safeguarding FDIC-owned property and interests when employees leave the Corporation. A key component
   of these procedures is Form 2150/01, Pre-Exit Clearance Record for Employees, which contains a checklist
   of items that must be completed as part of the employee’s pre-exit clearance process.
37
   In our March 30, 2004 Audit Report No. 04-016 entitled, FDIC’s Personnel Security Program, we
   recommended, among other things, that the FDIC (a) review employees in moderate-risk level positions to
   ensure that appropriate background investigations have been performed and (b) re-assess low-risk-level
   employee positions having access to sensitive data in major applications to ensure that background
   investigations are completed for these employees commensurate with their access privileges.



                                                     22
access to FDIC systems. Confidentiality agreements are intended to provide the FDIC
added assurance that contractors will properly safeguard confidential information in their
custody. We judgmentally selected 30 current contractor employees who we determined
would require a confidentiality agreement and found that the agreements for 10 such
employees either had not been completed or could not be located. Additionally, we
reported weaknesses related to contractor and subcontractor confidentiality agreements in
our August 2006 Audit Report No. 06-016 entitled, Controls Over the Disposal of
Sensitive FDIC Information by Iron Mountain, Inc. The FDIC needed to strengthen
controls over contractor confidentiality agreements to ensure the requirement to protect
sensitive information is fully understood by cognizant parties and to promote
accountability.

Physical Security and Environmental Protection

Physical and environmental protection relates to those security measures aimed at
safeguarding information systems, facilities, and related supporting infrastructures from
threats. Such security measures include, but are not limited to, physical access controls,
emergency power and lighting, fire protection, and temperature and humidity controls.
Such measures also include procedures for the delivery and removal of systems
hardware, firmware, and software to and from facilities.

The FDIC has established corporate-wide physical security program policies and
procedures. However, we identified several physical security control weaknesses during
our evaluation. In most cases, DOA either had addressed or was taking action to address
these weaknesses.

On July 11, 2006, we conducted a walkthrough of the FDIC’s Virginia Square facility
and identified a significant amount of documented sensitive information stored in
unsecured filing cabinets located in common areas. For example, we found
documentation containing information in an identifiable format (i.e., employee names
and Social Security numbers), attorney-client privileged information, investigation
results, and a sensitive discussion of recent litigation. During our audit, we advised DIT
of the need to secure this information. A DIT official stated that DIT was taking prompt
corrective action. Our walkthrough also identified six unsecured mechanical rooms
housing the building’s heating, ventilation, and air conditioning systems; water supply;
and electrical equipment. A DOA official indicated that card readers had originally been
planned for the entrances to the mechanical rooms and that installing locks now (as an
interim measure) would make installing the card readers more difficult. Prior to the close
of our field work, DOA had secured all six mechanical rooms.

On July 18, 2006, we performed a site visit of the FDIC’s new disaster recovery data
center and noted areas where access to facilities could be better controlled. A DOA
official indicated that DOA was aware of the issues and that improvements were planned.
With regard to physical access to the FDIC’s Virginia Square Data Center, DOA was
generating reports of employee and contractor access to the center and providing the
reports to DIT for review and analysis. However, a DIT official indicated that the data
center access reports are reviewed on an ad hoc basis. The FDIC needs to establish a


                                             23
procedure for regularly reviewing these reports for potential security incidents consistent
with NIST-recommended security practices.

In addition, we were unable to determine whether selected employees and contractors
with access to the FDIC’s Washington, D.C., area facilities had appropriate access
authorizations because access authorization documentation was not readily available. We
judgmentally sampled 30 current employees and contractors and attempted to verify
whether FDIC Form 1620/01, Employee/Contractor Identification Card Request, had
been completed and approved.38 A DOA official provided us with access forms for 7 of
the 30 employees and contractors but indicated that locating the remaining authorizations
would require time and research. At the close of our evaluation, we had not been
provided with access forms for the remaining 23 employees and contractors.

We noted that the FDIC had implemented and regularly tested environmental controls
within the Virginia Square Data Center that are vital to ensuring the availability of critical
hardware and software. Such controls include cooling systems to maintain appropriate
temperature levels, fire detection and suppression to provide life-saving services,
uninterrupted power to maintain a clean power supply, and diesel generators to provide
backup power.

Contingency Planning

Effective contingency planning and testing is essential to mitigate the risk of system and
service unavailability. Contingency planning involves developing and implementing
system contingency plans that address roles, responsibilities, and activities associated
with restoring a system after a disruption or failure. Such planning also involves training
personnel, testing systems, performing system backups, and establishing alternative
processing sites.

The FDIC has established a corporate contingency planning program policy39 and a
business recovery plan template that are consistent with NIST guidelines. In addition, the
FDIC has updated its business impact analysis (BIA) to validate its current IT recovery
priorities. Further, the mainframe and LAN/WAN recovery plans were generally
consistent with NIST security guidelines; however, we did note some minor
discrepancies.40 In early March 2006, the FDIC consolidated its IT disaster recovery
operations at a new location. Later that same month, the FDIC conducted an IT disaster

38
   FDIC Circular 1610.1, FDIC Physical Security Program, states that administrative officers are responsible
   for approving form FDIC 1620/01 for all new employees, interns, detailees, and others who require an FDIC
   identification badge. Once completed and approved, the form is forwarded to DOA Corporate Services
   Branch.
39
   Circular 1360.13, DIRM’s [Division of Information Resources Management] Contingency Planning
   Program Policy, dated November 22, 2004. DIT formerly operated under the title of DIRM.
40
   The FDIC did not incorporate the BIA into the overall business continuity documentation for reference
   purposes in the event of plan activation as recommended by NIST SP 800-34, Contingency Planning Guide
   for Information Technology Systems. In addition, the mainframe recovery plan did not address
   NIST-recommended security controls related to training, exercise and testing schedules, and plan
   maintenance.



                                                     24
recovery test of its mission-critical applications and general support systems. The FDIC
has developed plans to address the issues it identified during the March 2006 test and
conducted a limited disaster recovery test in June 2006 to determine whether certain
issues had been adequately addressed. We plan to conduct a more detailed analysis of the
FDIC’s IT disaster recovery capability in a future audit assignment.

Configuration Management

Key to ensuring the confidentiality, integrity, and availability of any information system
is implementing structured processes for managing the inevitable changes that will occur
during the system’s life cycle. Such processes, collectively referred to as configuration
management, include evaluating, authorizing, testing, tracking, reporting, and verifying
both hardware- and software-related changes.

The FDIC has documented guidelines for ensuring the proper configuration of its routers
and switches and has performed monthly vulnerability scans of this equipment to ensure
that security weaknesses have been identified, analyzed, corrected, and documented. In
addition, routers and switches that we selected for review were configured consistent
with the FDIC’s documented baseline configurations. In July 2006, the FDIC
significantly improved the configuration management of its corporate firewalls by
implementing a formal change management tool.41 Prior to July 2006, firewall rule set
changes were handled through e-mail and did not require formal approvals.
Implementing the change management tool was a notable improvement, but the corporate
firewalls do not have documented baseline configurations. The baseline configuration
coupled with a change control process ensure that the current configuration for hardware
and software is accurate. Such accuracy is critical for decision making regarding the
need to implement security patches or functionality upgrades. Once these firewall
configurations are established, the FDIC should use an automated tool to analyze the
configuration of its firewalls, such as the tool used for analyzing the configuration of the
FDIC’s routers and switches.

With regard to the mainframe, we identified a powerful program that could have allowed
any mainframe programmer to bypass all security controls for the system. We considered
this vulnerability to be serious in nature and brought it to DIT’s attention, and the
program was promptly removed from the system. The FDIC needs to take additional
measures to ensure that powerful programs on the mainframe are strictly controlled.
Such measures could include maintaining a current and complete listing of such
programs, tracking changes to such programs, and periodically reviewing the integrity of
such programs.

Although the FDIC uses the CA-Endeavor® automated configuration management tool42
to process mainframe application software changes, the FDIC does not use a

41
   The FDIC implemented Remedy to track requests through system life-cycle stages (i.e., request, approval,
   implementation, and closure).
42
   CA-Endeavor® is a software product providing automated support for change, configuration, or version
   control.



                                                      25
configuration management tool to process mainframe system software43 changes. The
FDIC handles mainframe system software changes (including in-house-developed source
code) manually. Change management tools provide added assurance that software is
properly controlled and that changes are properly recorded, tracked, approved, and
reported. For example, CA-Endeavor® interfaces with the mainframe’s access control
software to secure source code and object code libraries on the mainframe from
unauthorized changes. Updates to source code libraries require system and application
programmers to “check-in” their code, request approval, and migrate software changes to
production system libraries.

Maintenance

Maintenance involves scheduling, performing, and documenting preventative and regular
maintenance on the components of information systems in accordance with manufacturer
or vendor specifications and/or organization requirements. Maintenance also involves
approving, controlling, and monitoring maintenance tools and activities.

The FDIC has established policies and procedures for maintaining its information system
components. The FDIC maintains current operating system software for its routers,
switches, and firewalls and has established full-service contracts with vendors and
vendor-certified partners to support its LAN/WAN. In addition, the FDIC maintains
vendor-supported operating system software on the mainframe. However, the vendor has
announced plans to discontinue its support of the current operating system software on
the FDIC’s mainframe, beginning in March 2007. Accordingly, the FDIC must
determine whether to upgrade the mainframe’s operating system software or use it
without vendor support. In addition, the FDIC is in the process of acquiring a new
network intrusion detection system (IDS) solution because vendor support for its current
IDS solution has been discontinued. The risk of loss of vendor support to critical
software must be carefully considered in updating the FDIC’s EA and proceeding with
technical solutions.

System and Information Integrity

System and information integrity controls include security controls for identifying,
reporting, and correcting information system flaws. Such flaws can be discovered
through the agency’s system security assessments, continuous monitoring, or software
vendors that recommend the implementation of software patches, service packs, or
hotfixes to their software. System and information integrity control also involves the
deployment of virus protection and intrusion detection mechanisms to protect the
agency’s IT operations and the implementation of controls for ensuring the accuracy,
completeness, and validity of information.

The FDIC established policies and procedures designed to ensure the integrity of its
systems and information. The FDIC has deployed anti-virus and IDS technologies to

43
     Examples of system software for the mainframe include Multiple Virtual Storage, Virtual
     Telecommunications Access Method, and Job Entry Subsystems.



                                                        26
protect its network operations. In addition, the FDIC has established performance
measures to monitor the deployment of its software patches against pre-established
timeframes. With regard to the mainframe, we noted that system security software was
not configured to verify the identity of on-line programs to prevent spoofing—concealing
a program with malicious intent by imitating a legitimate program. Spoofing a program
could allow a programmer to gain another user’s identification (ID) and password.

In its September 2006 report entitled, Responses to Security-Related Questions in OMB’s
Fiscal Year 2006 Reporting Instructions for FISMA and Agency Privacy Management,
KPMG LLP (KPMG)44 noted that the FDIC had generally implemented timely security
patches for its UNIX® Solaris™ server and Microsoft for Windows® server and desktop
operating systems. However, DIT was working to address a problem it had identified
relating to the Windows® automated patch delivery tool. Specifically, at the end of our
fieldwork, about 150 desktops and servers (combined) on the network had not been
properly configured to automatically receive and install software patches. Additionally,
we identified six Windows servers for which several required patches had not been
installed. We brought these servers to DIT’s attention. Subsequently, a DIT official
advised us that DIT had retired two of the six servers and installed patches on the
remaining four. We plan to report the effectiveness of the corrective actions in our
separate report to the CIO.

Media Protection

Media protection involves those security controls related to controlling access to hard-
copy and electronic media, labeling media consistent with its sensitivity, and ensuring
media storage is secured. Media protection also involves safeguarding the transportation
of media and ensuring that appropriate controls are in place when sanitizing and
disposing of media.

The FDIC has established corporate policies and procedures for managing and disposing
of sensitive records created or acquired in the course of conducting business.45
Additionally, the FDIC was working to develop a corporate policy describing rules for
storing, using, and disposing of sensitive FDIC data throughout its life cycle in response
to OMB Memoranda M-06-16, Protection of Sensitive Agency Information, dated
June 23, 2006; and M-06-19, Reporting Incidents Involving Personally Identifiable
Information and Incorporating the Cost for Security in Agency Information Technology
Investments, dated July 12, 2006. Issuance of this policy is key to providing security for
sensitive agency information. DIT plans to address the labeling of sensitive data in the
new policy. In Audit Report No. 06-016, we reported that the FDIC had established key
controls for ensuring the secure disposal of sensitive information by its records
management contractor. However, the FDIC needed to improve its oversight of the
records management contractor to ensure that the controls for safeguarding the disposal
of sensitive information had been effectively implemented.

44
     KPMG, under contract to the FDIC OIG, performed the audit work for this report.
45
     FDIC Circulars 1210.18, FDIC Records Management Program; 1210.1, FDIC Records Retention and
     Disposal Schedule; and 1210.4, Records Disposition.



                                                   27
Incident Response

FISMA requires that agency information security programs include procedures for
detecting, reporting, and responding to security incidents. Implementing an effective
incident response capability involves consideration of many factors, including training
and detection, analysis, containment, eradication, reporting, and recovery from security
incidents.

As indicated in our 2005 security evaluation report, the FDIC has continued to maintain a
computer security incident response capability consistent with SP 800-61, Computer
Security Incident Handling Guide. The FDIC has provided regular training to its
Computer Security Incident Response Team members and has prepared procedure
manuals containing detailed guidance for the prevention, detection, analysis, response,
recovery, and reporting of security incidents.

Awareness and Training

FISMA requires federal agencies to provide security awareness training to users of
agency information systems and requires agency CIOs to ensure proper oversight and
training of personnel with significant information security responsibilities. In addition,
federal regulations require agencies to develop a security awareness and training plan,
identify employees with significant security responsibilities, and provide role-specific
training in accordance with NIST standards and guidance.46

The FDIC has continued its prior-year practices of requiring (1) network users to
complete an annual security awareness orientation,47 (2) major application users to
complete application-specific security awareness training, and (3) general support system
technicians and managers to complete system-specific security training. Further, DIT has
developed a formal training plan to ensure its staff with significant information security
responsibilities receive appropriate security training for the type of work they perform.
While these actions were positive, the FDIC needed to strengthen its procedures for
ensuring that new network users complete required security awareness training on a
timely basis. We randomly selected 45 network user accounts that had been created in
2006 for new FDIC employees and contractors. We found that 13 users (28 percent) had
not completed the awareness orientation within the 5-day period defined in Circular
1360.16. We spoke with a DIT official about these users and learned that there can be

46
   The FDIC has determined that 5 Code of Federal Regulations Part 930, Subpart C, Information Security
   Responsibilities for Employees Who Manage or Use Federal Information Systems, applies to the
   Corporation.
47
   Circular 1360.16, Mandatory Information Security Awareness Training, requires users of the FDIC’s
   network to complete an annual Web-based information security awareness orientation. The circular states
   that new employees shall log on and review the FDIC Information Security Awareness Web site and
   orientation as soon as their network access is granted. Failure to do so within 5 working days of receiving a
   network ID may result in revoking employee and contractor access to FDIC systems and applications. The
   orientation includes information about laws, regulations, and policies related to computer security; rules of
   behavior for systems and major applications; tips on effective security; and links to additional sources of
   information.



                                                        28
legitimate reasons why a new network user may not take the awareness training within
the 5-day period.48 However, the DIT official acknowledged that improved procedures
are needed to assist division and office ISMs in ensuring that new network users
complete the security awareness training in a timely manner.




48
     For example, a user may not log into the network within 5 days of the creation of the user’s account.



                                                          29
TECHNICAL CONTROLS

Technical controls are the safeguards or countermeasures for an information system that
are primarily implemented and executed by the system through mechanisms contained in
the hardware, software, or firmware components of the system. SP 800-53 separates
technical controls into four control families: Identification and Authentication, Access
Control, Audit and Accountability, and System and Communications Protection. In
summary, we found that the controls we tested in the area of Identification and
Authentication are effective. However, the controls tested in the areas of Access Control
and Audit and Accountability warrant management attention. Due to our limited testing
of System and Communications Protection controls, we did not assess this control family
as part of our current-year work.

Identification and Authentication

Identification and authentication are security measures designed to prevent unauthorized
individuals or processes from accessing information systems and data. FIPS PUB 201,
Personal Identity Verification of Federal Employees and Contractors, and associated
publications establish standards and requirements for the identity verification of federal
employees and contractors and for personal identity verification (PIV) credentials to be
issued.49 OMB has directed agencies to deploy products and operational systems to issue
identity credentials meeting the FIPS PUB 201 standard by October 27, 2006. Individual
identities can be authenticated using various means, such as passwords, card tokens,
biometrics, or some combination thereof. Devices can be identified and authenticated
using shared known information, such as a Media Access Control address and an
organization authentication solution (i.e., IEEE 802.1x and Extensible Authentication
Protocol).

Generally, the FDIC implemented adequate policies, procedures, and practices for
identifying and authenticating users of its LAN/WAN and mainframe. These controls
included processes for systems access requests by users, management approval of
systems access requests, and periodic re-authorizations of systems access privileges.
With regard to the FDIC’s efforts to implement a PIV system for its employees and
contractors, the FDIC has contracted with a firm to obtain consulting and technical
assistance. Due to uncertainties regarding how a PIV solution will be implemented, the
FDIC had not yet developed a project plan or determined when it will have NIST-
compliant processes for verifying the identity of its employees and contractors and
issuing PIV identity credentials. We plan to evaluate the FDIC’s efforts to address these
processes as part of our 2007 FISMA evaluation work.




49
     NIST released FIPS PUB 201 in response to Homeland Security Presidential Directive 12 (HSPD-12), Policy
     for a Common Identification Standard for Federal Employees and Contractors, on August 27, 2004.
     HSPD-12 requires the development and agency implementation of a mandatory, government-wide standard
     for secure and reliable forms of identification. The FDIC is not required to implement HSPD-12; however,
     the FDIC has decided to voluntarily comply with HSDP-12.



                                                       30
Access Control

Information system access controls (i.e., logical access controls) provide assurance that
system resources can be accessed only by authorized users in authorized ways. Logical
access controls provide a technical means of controlling the information users can read
and copy, the programs they can execute, and the modifications they can make. Logical
access controls also promote a key security principle known as “least privilege.”50

The FDIC has established various policies and procedures that describe corporate-wide
roles and responsibilities for managing access to its information systems and data.51 In
addition, DIT has identified improvements in the FDIC’s access control program as one
of its top priorities for 2006. At the time of our evaluation, DIT was performing an
internal assessment of the FDIC’s processes for granting user access to corporate
information systems.

The FDIC has established and implemented a number of procedures for controlling
access to its mainframe and LAN/WAN systems. However, improvements in some areas
were needed. Regarding the LAN/WAN, we noted that access requests and approvals for
routers and switches are handled through e-mail rather than through a centralized tool
such as the FDIC’s Access Authorization Security Application. The FDIC can enhance
its LAN/WAN access control practices by using an automated tool. Regarding the
mainframe, we identified two potential access control-related vulnerabilities as
summarized below.

     •   An important mainframe security feature that prevents users from recovering
         deleted data sets was not enabled. Enabling this security feature would prevent
         users from recovering sensitive datasets that they may not be authorized to view.
         DIT officials indicated that they would evaluate the feasibility of implementing
         the security as part of a planned mainframe upgrade.

     •   Access restrictions designed to prevent a knowledgeable user from accessing
         powerful system software programs for unauthorized purposes, such as elevating
         their security privileges to access, modify, or delete program code, datasets, or
         other resources on the mainframe, were not consistent with mainframe security
         operating procedures. DIT officials indicated that they would review powerful
         system software programs to determine whether additional access restrictions
         should be implemented.




50
   Least privilege refers to the security objective of restricting user access to only those IT resources needed to
   perform official duties. Applying the principle of least privilege can mitigate damage to system resources
   resulting from accidents, errors, or unauthorized use.
51
   Such policies and procedures include, but are not limited to, Circular 1360.15, Access Control for Automated
   Information Systems, dated September 24, 2003; Circular 1370.1, Periodic Review of Mainframe Resource
   Access, dated July 17, 1995; the FDIC’s Access Control Procedures and Guidelines, dated December 2002;
   and Information Security Manager’s (ISM) Guide, dated August 2005.



                                                        31
In addition, we noted that the FDIC had not always restricted access to computer
resources on the network consistent with the principle of least privilege. In March 2006,
we reported that access to critical security software on the FDIC’s laptop computers had
not been appropriately restricted.52 During our current-year FISMA evaluation work, we
identified two contractor-maintained computers on the network that had not been
restricted to prevent network users from accessing their operating system files or
information stored on their hard drives, such as confidential bank data. Additionally, 1 of
10 network servers that we judgmentally selected for testing as part of our current year
FISMA work had not been configured to prohibit users from controlling critical services.
Specifically, any FDIC network user had the ability to start or stop critical services on the
server, including e-mail services, antivirus software, and event logging. Although this
vulnerable server appears to have been an isolated event, the issues discussed here
collectively underscore the importance of conducting periodic reviews of network
resources for least privilege.

We also found that the FDIC had established a corporate policy requiring its divisions
and offices to monitor user access privileges for their information systems. However, the
FDIC needs to develop an enterprise-wide approach for monitoring user access privileges
commensurate with the sensitivity of the FDIC’s information systems and data. Such an
approach would help ensure that monitoring practices are commensurate with system
sensitivity.

Regarding the encryption of sensitive information, OMB Memorandum M-06-16
recommends that departments and agencies encrypt all data on their mobile
computers/devices that carry agency data unless the data is determined to be non-
sensitive. The FDIC has implemented two separate software solutions for encrypting
data on mobile laptop computers and removable media (including compact disks and
flash drives). However, these solutions require manual intervention by users to encrypt
sensitive data and files, limiting management’s assurance that sensitive information is
consistently encrypted on mobile computing devices. To address this limitation, the
FDIC is currently pilot testing a new encryption solution that will secure all information
in a manner transparent to users. The FDIC plans to deploy the new encryption solution
based on the results of its pilot testing (currently scheduled for completion in November
2006).

Audit and Accountability

Audit trails, together with appropriate tools and procedures, promote key security-related
objectives, such as detecting security violations, promoting individual accountability, and
reconstructing auditable events. Audit and accountability involve generating audit
records at a sufficient level of detail to establish the events that took place, sources of the
events, and outcomes of the events. Audit and accountability also involve consideration
of audit trail storage, processing, monitoring, analysis, reporting, protection, and
retention.

52
     OIG Audit Report No. 06-012 entitled, Security Controls Over the FDIC’s Wireless Data Communications,
     dated March 2006.



                                                      32
Although FDIC policy requires system developers to incorporate audit and accountability
measures into new and existing information systems, the policy does not address audit
logging and monitoring responsibilities for system owners.53 In addition, the FDIC’s
RUP® SDLC methodology does not require system owners to define audit logging and
monitoring requirements. Further, the FDIC has not developed procedures and
guidelines to assist system owners in determining the circumstances under which system
audit logs should be created, information that should be logged, and the methods
available for logging and monitoring. Such procedural improvements are needed to
ensure that the FDIC’s practices for generating and monitoring audit logs are
commensurate with the sensitivity levels of the systems and the data they processed.

Regarding the LAN/WAN, audit log information was centrally recorded and stored. DIT
staff told us that they periodically review LAN/WAN audit logs. However, DIT had not
documented procedures describing which audit log activities are reviewed, how often
they are reviewed, or who reviews them or the types of actions that can be taken when
potential security incidents are identified. Regarding the mainframe, the FDIC was
taking action to log and monitor user access activities to ensure such activities were
consistent with security policies and procedures. However, we identified five mainframe
users with special privileges who were responsible for reviewing audit logs of their own
activities. This approach did not provide for the appropriate separation of duties. We
brought this weakness to DIT’s attention during the evaluation, and prompt corrective
action was taken.

Based on the results of our evaluation work in the areas of access control and audit and
accountability, we concluded that management attention is warranted to ensure that
appropriate risk-based security controls are in place and operating as intended.

System and Communications Protection

System and communications protection addresses a number of key security control
measures including, but not limited to, ensuring that system functionality is appropriately
segregated; communications are monitored, controlled, and protected; and that
cryptographic operations (if used) are adequate.

We did not perform specific audit procedures related to system and communications
protection because the majority of controls in this family pertain to general support
systems not covered under our current-year evaluation. Such general support systems
include the Voice/Video, Public Key Infrastructure, and Remote Access systems. We
plan to evaluate system and communications protection security controls in future
FISMA evaluations.




53
     Circular 1360.15, Access Control for Automated Information Systems.



                                                       33
                                                                             APPENDIX I


                   OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our review was to evaluate the effectiveness of the FDIC’s information
security program and practices, including the FDIC’s compliance with FISMA and
related information security policies, procedures, standards, and guidelines. The scope of
our work included a review of the FDIC’s common controls and certain NIST SP 800-53
control families of the LAN/WAN and mainframe general support systems, as well as the
FDIC’s progress in meeting HSPD-12 provisions.

To accomplish our objective, we interviewed key DIT and program office personnel who
had significant information security responsibilities. Also, we evaluated the FDIC’s
security-related policies, procedures, and guidelines and certain security-related
documents and files, including C&A documentation, vulnerability assessments, IT
services contracts, training records, and strategic and annual performance plans. We
tested the FDIC common controls and the LAN/WAN and mainframe in order to
determine the FDIC’s compliance with its policies and procedures and federal guidelines.
Appendix II lists the SP 800-53 controls included in the scope of our review.

We engaged KPMG to perform our assessment of the FDIC’s common controls and
LAN/WAN and mainframe system security controls. Our oversight of KPMG included
evaluating the nature, timing, and extent of work described in KPMG’s evaluation
program, attending key meetings with KPMG, monitoring KPMG’s work throughout the
evaluation, and performing other procedures we deemed appropriate. In this manner, we
assured ourselves that KPMG's work complied with generally accepted government
auditing standards (GAGAS).

In the performance of our FISMA work, we leveraged security-related audit, review, and
evaluation reports issued by the GAO and others, including the FDIC’s OIG. To assure
ourselves that we could leverage pertinent information contained in these reports, we
performed appropriate procedures, such as obtaining an understanding of the
methodologies, assumptions, and conclusions described therein.

In addition, our evaluation did not assess controls at depository institutions insured and
regulated by the FDIC that routinely provide financial information to the Corporation.
We performed our evaluation at the FDIC's Headquarters office and primary computer
facility in Arlington, Virginia, and the new disaster recovery site during the period April
through August 2006. Throughout our evaluation, we met with FDIC management to
discuss our preliminary conclusions. We conducted our evaluation in accordance with
GAGAS.

Internal Control

An explanation of the terms “internal control,” “reasonable assurance,” and “adequate
security” is important to ensure a proper understanding of our approach and conclusions.




                                             34
                                                                                              APPENDIX I

OMB Circular No. A-123 (OMB A-123), Management’s Responsibility for Internal
Control,54 states:

         Internal Control—organization, policies, and procedures—are tools to
         help program and financial managers achieve results and safeguard the
         integrity of their programs.

Additionally, OMB A-123 states that reasonable assurance must be provided by internal
control. The circular states:

         Internal control is an integral component of an organization’s management
         that provides reasonable assurance that the following objectives are being
         achieved: effectiveness and efficiency of operations, reliability of
         financial reporting, and compliance with applicable laws and regulations.

OMB A-130, Appendix III,55 defines adequate security as security commensurate with
the risk and magnitude of harm resulting from the loss, misuse, or modification of or
unauthorized access to information. This includes assuring that agency systems and
applications provide appropriate confidentiality, integrity, and availability through the
use of cost-effective management, personnel, operational, and technical controls. The
concept of adequate security is consistent with FISMA, which directs agency heads to
provide information security protections commensurate with the risk and magnitude of
harm resulting from the unauthorized access to, use, disclosure, disruption, modification,
or destruction of information and information systems.

Government oversight agencies, such as GAO and OMB, and recognized
standards-setting organizations such as NIST have identified fundamental management
principles and controls needed to implement an effective information security program.56
The controls were defined with the publication of FIPS PUB 200 and SP 800-53, and an
assessment methodology was outlined in a draft assessment guide in SP 800-53A.
SP 800-53 defines a minimum set of security controls for the non-national security
systems of all federal agencies. These security controls are selected based on the
potential impact that could occur to the agency should there be a loss of confidentiality,
54
   On December 21, 2004, OMB revised the circular, which became effective in fiscal year 2006, to strengthen
   requirements for conducting management’s assessment of internal control over financial reporting and to
   emphasize the need for agencies to integrate and coordinate internal control assessments with other
   internal-control-related activities. The circular implements the FMFIA. This Act is applicable to the FDIC
   because of provisions in the Chief Financial Officers Act of 1990 regarding annual reporting by government
   corporations on their internal accounting and administrative control systems. The FDIC has determined that
   as long as it develops internal controls that are consistent with the goals of FMFIA, the FDIC will have met
   its legal obligations under the circular.
55
   OMB A-130, Appendix III, establishes minimum controls for federal automated information security
   programs. The FDIC has determined that portions of the circular apply to the FDIC, while other portions do
   not apply. The FDIC has also determined that OMB A-130, Appendix III, requires the FDIC to implement
   and maintain an information security program consistent with government-wide policies, standards, and
   procedures issued by OMB and the Department of Commerce.
56
   GAO Executive Guide, Information Security Management: Learning From Leading Organizations; OMB
   A-130, Appendix III; SP 800-14; SP 800-12; and SP 800-53.



                                                       35
                                                                                       APPENDIX I

integrity, or availability of the information or information system. The publication
defines 17 management, operational, and technical security control families that are
integral to securing any federal information system.

In addition to the SP 800-53 controls for securing systems, draft SP 800-100 describes
other controls for agency-wide management of a security program. Based on our analysis
of draft SP 800-100 and considering the FDIC’s business and IT environment, we
identified three additional security program control families, Information Security
Governance, Enterprise Architecture, and Capital Planning. Table 3 lists the security
control classes and related security control families.

Table 3: Security Control Classes and Families
  Security Control Class                              Security Control Family
Program                              Information Security Governance
                                     Enterprise Architecture
                                     Capital Planning
Management                           Risk Assessment
                                     Planning
                                     System and Services Acquisition
                                     Certification, Accreditation, and Security Assessments
Operational                          Personnel Security
                                     Physical and Environmental Protection
                                     Contingency Planning
                                     Configuration Management
                                     Maintenance*
                                     System and Information Integrity
                                     Media Protection*
                                     Incident Response
                                     Awareness and Training
Technical                            Identification and Authentication
                                     Access Control
                                     Audit and Accountability*
                                     System and Communications Protection
Source: OIG analysis of NIST guidance.
*This control family was not included in prior OIG FISMA evaluations of the FDIC’s information security
program.




                                                   36
                                                                               APPENDIX I

We assigned one of three assurance levels (reasonable assurance, limited assurance, and
minimal/no assurance) when assessing the effectiveness of the information security
program. We used OMB guidance to develop definitions for reasonable, limited, and
minimal assurance (see Table 4).

Table 4: Information Security Program Assurance Levels
                   Indicates that the Corporation has established or implemented controls
                   that were sufficient to provide reasonable, but not absolute, assurance of
                   achieving adequate security over its information resources.
 Reasonable        Designations of reasonable assurance indicate that the FDIC has
 Assurance         designed or implemented controls to ensure compliance with applicable
                   statutory or regulatory requirements and that such controls maintained
                   appropriate confidentiality, integrity, and availability of information
                   resources.
                   Indicates that the Corporation has established controls that were
                   partially complete or has implemented controls that were not always
                   effective or operating as intended. Designations of limited assurance
   Limited         indicate that the FDIC was in partial compliance with applicable
  Assurance        statutory or regulatory requirements and that control weaknesses existed
                   in the confidentiality, integrity, or availability of information resources.
                   Although mitigating controls may exist, control weaknesses may
                   impede the FDIC's ability to achieve its security goals and objectives.
                   Indicates that the Corporation has established few or no controls to
                   provide assurance of adequate security or that existing controls were not
                   operating as intended. Designations of minimal/no assurance indicate
                   significant noncompliance with applicable statutory or regulatory
 Minimal/No        requirements and serious control weaknesses relating to the
 Assurance         confidentiality, integrity, or availability of information resources.
                   Because mitigating controls were minimal or not present, the
                   achievement of corporate security goals and objectives was impaired.
                   Minimal/no assurance is indicative of weaknesses that merit the
                   attention of the FDIC Chairman and Board of Directors.
Source: OIG analysis of OMB guidance.

The OIG changed its methodology from prior years to better conform to the emerging
standards and guidance. Our current FISMA evaluation framework consists of assessing
the program control class on an agency-wide basis and assessing management,
operational, and technical control classes on a sample of systems. The assessment of
control families is based on testing a sample of the controls that make up the family. We
selected systems, control families, and individual controls for testing based on how
important the system is to the FDIC, the control family is to the system, and the control is
to the control family. We considered risk, costs, results of internal and external reviews,
government-wide and FDIC initiatives and goals, the maturity of the security program,
and other factors in selecting our samples. For fiscal year 2006, we sampled two general
support systems—the mainframe and LAN/WAN. Appendix II identifies the security
control families for which we performed limited testing of system-level controls.


                                              37
                                                                                                 APPENDIX I

In previous years, based on our analysis of long-standing requirements found in
security-related statutes, policies, and guidance and considering the FDIC’s business and
IT environment, we identified 10 key management control areas associated with the
FDIC’s information security program. For each of the 10 management control areas, we
provided an assessment in terms of the level of assurance that the management control
provided adequate security over the FDIC's information resources. Using each of the 10
management control assessments as a basis and considering associated risk, we then
assessed the Corporation’s overall information security program and compared it to
previous security evaluation results. In this manner, we were able to evaluate the FDIC’s
progress in strengthening its information security program and practices. However, we
were unable to make a meaningful comparison of results from the prior and current
annual evaluations due to differences in the nature and extent of control testing
performed.

Laws and Regulations

We evaluated the FDIC's compliance with FISMA57 and information-security-related
laws, policies, procedures, standards, and guidelines (or provisions thereof) that had a
direct and material impact on the FDIC's information security program and practices.
Our evaluation focused primarily on FISMA and OMB A-130, Appendix III,58 as criteria
for the major elements of an effective information security program. Our evaluation also
placed particular reliance on a number of statutes, policies, and guidance; including but
not limited to:

     •   The E-Government Act of 200259
     •   FMFIA60
     •   The Clinger-Cohen Act of 199661
     •   The Government Performance and Results Act of 199362



57
   FISMA, codified in pertinent part to titles 40 and 44, United States Code (U.S.C.), is similar to Title X of the
   Homeland Security Act of 2002 (Pub. L. No. 107-269), which also bears the name Federal Information
   Security Management Act of 2002. In signing the E-Government Act of 2002 into law, the President stated
   that the executive branch will construe the E-Government Act of 2002 as permanently superseding the
   Homeland Security Act of 2002 in those instances where both Acts prescribe different amendments to the
   same provisions of the U.S.C. Also, see 44 U.S.C. § 3549 regarding the effect of the E-Government Act on
   existing law.
58
   The FDIC has determined that portions of the Circular apply to the FDIC.
59
   The FDIC had determined that this statute, Title III of which contains FISMA, is legally binding on the
   FDIC.
60
   The FDIC has determined that portions of the FMFIA are applicable to the FDIC by reference in the Chief
   Financial Officers Act. In general, the goals of FMFIA are that agency obligations and costs comply with
   applicable law; assets are guarded against waste, loss, etc.; and revenue and expenditures are properly
   accounted for, so that reliable financial statements can be prepared.
61
   The FDIC has determined that the Clinger-Cohen Act does not apply to the FDIC. The Clinger-Cohen Act
   imposes obligations and responsibilities on “executive agencies” as defined in the Office of Federal
   Procurement Policy Act, which does not include the FDIC. However, the FDIC has indicated that it intends
   to follow the spirit of the Act.



                                                         38
                                                                                              APPENDIX I


     •   The Chief Financial Officers Act of 199063
     •   The Privacy Act of 197464
     •   5 Code of Federal Regulations Part 930, Subpart C, Information Security
         Responsibilities for Employees Who Manage or Use Federal Information
         Systems65
     •   HSPD–7, Critical Infrastructure Identification, Prioritization, and Protection66
     •   HSPD-12, Policy for a Common Identification Standard for Federal Employees
         and Contractors67
     •   OMB Circular No. A-11, Preparation, Submission, and Execution of the Budget68
     •   OMB Circular No. A-123, Management Responsibility for Internal Control69
     •   The following OMB security-related memoranda:
         • M-00-07, Incorporating and Funding Security in Information Systems
             Investments70
         • M-02-01, Guidance for Preparing and Submitting Security Plans of Action
             and Milestones71
         • M-03-22, OMB Guidance for Implementing the Privacy Provision of the
             E-Government Act of 200272
         • M-06-15, Safeguarding Personally Identifying Information73
         • M-06-16, Protection of Sensitive Agency Information74
         • M-06-19, Reporting Incidents Involving Personally Identifiable Information
             and Incorporating the Cost for Security in Agency Information Technology
             Investments75

62
   The Act requires most federal agencies, including the FDIC, to develop a strategic plan that broadly defines
   the agency's mission and vision, an annual performance plan that translates the vision and goals of the
   strategic plan into measurable objectives, and an annual performance report that compares actual results
   against planned goals.
63
   The FDIC has determined that the portions of this Act that are applicable to government corporations are also
   applicable to the FDIC.
64
   The Act, which is applicable to the FDIC, requires agencies to have appropriate administrative, technical and
   physical safeguards over the security and confidentiality of agency records
65
   The FDIC has determined that this provision applies to the FDIC.
66
   The FDIC has determined that HSPD-7 applies to the Corporation.
67
   According to OMB guidance for implementing HSPD-12, government corporations are encouraged to
   comply with the directive. The FDIC is voluntarily complying with this directive.
68
   This circular governs the federal budgeting process and contains requirements for identifying and tracking
   various agency costs. The FDIC prepares budgetary data for OMB’s review but not approval.
69
   The FDIC has determined that this circular is applicable to the FDIC; specifically, as long as the FDIC’s
   internal controls are consistent with the goals of the FMFIA, the FDIC will have met its obligations under
   this circular.
70
   The FDIC determined that this memorandum, which implements OMB Circular Nos. A-130 and A-11, was
   not applicable to the FDIC.
71
   The FDIC is reviewing this memorandum to determine its applicability to the FDIC.
72
   This memorandum implements section 208 of the E-Government Act, which applies to the FDIC.
73
   The applicability of this memorandum has not been determined; however, the FDIC has taken steps to
   implement it.
74
   The applicability of this memorandum, which deals with protecting information remotely accessed, has not
   been determined, but the FDIC has taken steps to implement it.



                                                       39
                                                                                               APPENDIX I


         •   M-06-20, FY 2006 Reporting Instructions for the Federal Information
             Security Management Act and Agency Privacy Management
     •   NIST FIPS PUB 199, Standards for Security Categorization of Federal
         Information and Information Systems76
     •   NIST FIPS PUB 200, Minimum Security Requirements for Federal Information
         and Information Systems.77
     •   NIST FIPS PUB 201, Personal Identity Verification (PIV) of Federal Employees
         and Contractors78
     •   FDIC policies and procedures related to information security
     •   GAO's Federal Information System Controls Audit Manual79
     •   The following NIST Special Publications:80
         • 800-12, An Introduction to Computer Security: The NIST Handbook
         • 800-18, Guide for Developing Security Plans for Information Technology
             Systems
         • 800-30, Risk Management Guide for Information Technology Systems
         • 800-34, Contingency Planning Guide for Information Technology Systems
         • 800-37, Guide for the Security Certification and Accreditation of Federal
             Information Systems
         • 800-40, Procedures for Handling Security Patches
         • 800-47, Security Guide for Interconnecting Information Technology Systems
         • 800-50, Building an Information Technology Security Awareness and
             Training Program
         • 800-53, Recommended Security Controls for Federal Information Systems
         • 800-55, Security Metrics Guide for Information Technology Systems
         • 800-60, Guide for Mapping Types of Information and Information Systems to
             Security Categories
         • 800-61, Computer Security Incident Handling Guide
         • 800-64, Security Considerations in the Information System Development Life
             Cycle
         • 800-65, Integrating Security into the Capital Planning and Investment Control
             Process



75
   This memorandum requires agencies to report computer incidents to a central federal incident-reporting
   center. Although legal applicability has not been determined, the FDIC has taken steps to implement this
   memorandum.
76
   Because the FDIC is not an executive agency for purposes of the publication, this publication is not legally
   applicable to the FDIC, but the FDIC follows its principles.
77
   The applicability of this publication has not been determined, but the FDIC intends to voluntarily comply
   with it.
78
   The FDIC is voluntarily complying with FIPS PUB 201.
79
   The manual provides guidance for reviewing information system controls that affect the integrity,
   confidentiality, and availability of computerized data.
80
   In general, these NIST SPs are, by their own terms, guidelines (rather than mandatory requirements) for
   agencies in implementing their IT operations. However, the current applicability of SP 800-53 to the FDIC
   has not been determined.



                                                       40
                                                                           APPENDIX I


Computer-based Data, Performance Measures, and Fraud and Illegal Acts

We performed appropriate procedures to assure ourselves that computer-based data were
valid and reliable when those data were significant to our evaluation findings and
conclusions. Such procedures included verifying selected automated data to source
documentation and corroborating automated data through interviews with appropriate
FDIC personnel. In addition, we evaluated the adequacy and effectiveness of the FDIC's
performance measures related to information security. Finally, we did not develop
specific audit procedures to detect fraud and illegal acts because we did not consider
fraud and illegal acts to be material to the evaluation objective. However, throughout our
evaluation, we were sensitive to the potential for fraud, waste, abuse, and
mismanagement.




                                            41
                                                                                APPENDIX II

                            NIST SP 800-53 CONTROLS TESTED

This appendix lists the recommended security controls for federal information systems from
NIST SP 800-53 published in February 2005. We performed limited testing on a sample of
controls identified in the Sample of Controls Tested column. We limited our tests based on the
risk and feasibility within the FDIC’s common control, mainframe, and LAN/WAN
environments. We also tested program controls.


                            NIST SP 800-53 Control                                 Sample of
     Family           No.                            Name                          Controls
                                                                                    Tested
                                   Management Control Class
Risk Assessment     RA-1       Risk Assessment Policy and Procedures                   X
(RA)                RA-2       Security Categorization                                 X
                    RA-3       Risk Assessment                                         X
                    RA-4       Risk Assessment Update                                  X
                    RA-5       Vulnerability Scanning                                  X
Planning            PL-1       Security Planning Policy and Procedures                 X
(PL)                PL-2       System Security Plan
                    PL-3       System Security Plan Update
                    PL-4       Rules of Behavior                                      X
                    PL-5       Privacy Impact Assessment                              X
System and          SA-1       System and Services Acquisition Policy and             X*
Services                       Procedures
Acquisition         SA-2       Allocation of Resources
(SA)*               SA-3       Life Cycle Support
                    SA-4       Acquisitions
                    SA-5       Information System Documentation
                    SA-6       Software Usage Restrictions                            X*
                    SA-7       User Installed Software                                X*
                    SA-8       Security Design Principles
                    SA-9       Outsourced Information System Services
                    SA-10      Developer Configuration Management
                    SA-11      Developer Security Testing
Certification,      CA-1       Certification, Accreditation, and Security              X
Accreditation,                 Assessment Policies and Procedures
and Security        CA-2       Security Assessments                                    X
Assessments (CA)    CA-3       Information System Connections                          X
                    CA-4       Security Certification                                  X
                    CA-5       Plan of Action and Milestones                           X
                    CA-6       Security Accreditation                                  X
                    CA-7       Continuous Monitoring




                                                42
                                                                                APPENDIX II

                            NIST SP 800-53 Control                                Sample of
     Family           No.                            Name                         Controls
                                                                                   Tested
                                    Operational Control Class
Awareness and       AT-1       Security Awareness and Training Policy and            X
Training                       Procedures
(AT)                AT-2       Security Awareness                                    X
                    AT-3       Security Training                                     X
                    AT-4       Security Training Records
Configuration       CM-1       Configuration Management Policy and Procedures        X
Management          CM-2       Baseline Configuration                                X
(CM)                CM-3       Configuration Change Control                          X
                    CM-4       Monitoring Configuration Changes                      X
                    CM-5       Access Restrictions for Change                        X
                    CM-6       Configuration Settings                                X
                    CM-7       Least Functionality                                   X
Contingency         CP-1       Contingency Planning Policy and Procedures            X
Planning            CP-2       Contingency Plan                                      X
(CP)                CP-3       Contingency Training                                  X
                    CP-4       Contingency Plan Testing                              X
                    CP-5       Contingency Plan Update                               X
                    CP-6       Alternate Storage Sites                               X
                    CP-7       Alternate Processing Sites                            X
                    CP-8       Telecommunications Services                           X
                    CP-9       Information System Backup                             X
                    CP-10      Information System Recovery and Reconstitution        X
Incident Response   IR-1       Incident Response Policy and Procedures               X
(IR)                IR-2       Incident Response Training                            X
                    IR-3       Incident Response Testing
                    IR-4       Incident Handling                                     X
                    IR-5       Incident Monitoring                                   X
                    IR-6       Incident Reporting                                    X
                    IR-7       Incident Response Assistance                          X
Maintenance         MA-1       System Maintenance Policy and Procedures              X
(MA)                MA-2       Periodic Maintenance                                  X
                    MA-3       Maintenance Tools
                    MA-4       Remote Maintenance
                    MA-5       Maintenance Personnel
                    MA-6       Timely Maintenance
Media Protection    MP-1       Media Protection Policy and Procedures                X
(MP)                MP-2       Media Access                                          X
                    MP-3       Media Labeling
                    MP-4       Media Storage                                         X
                    MP-5       Media Transport                                       X
                    MP-6       Media Sanitization                                    X
                    MP-7       Media Destruction and Disposal



                                               43
                                                                               APPENDIX II

                         NIST SP 800-53 Control                                  Sample of
      Family       No.                            Name                           Controls
                                                                                  Tested
Physical and     PE-1       Physical and Environmental Protection Policy and        X
Environmental               Procedures
Protection       PE-2       Physical Access Authorizations                          X
(PE)             PE-3       Physical Access Control                                 X
                 PE-4       Access Control for Transmission Medium
                 PE-5       Access Control for Display Medium
                 PE-6       Monitoring Physical Access                              X
                 PE-7       Visitor Control                                         X
                 PE-8       Access Logs                                             X
                 PE-9       Power Equipment and Power Cabling                       X
                 PE-10      Emergency Shutoff                                       X
                 PE-11      Emergency Power                                         X
                 PE-12      Emergency Lighting                                      X
                 PE-13      Fire Protection                                         X
                 PE-14      Temperature and Humidity Controls                       X
                 PE-15      Water Damage Protection                                 X
                 PE-16      Delivery and Removal
                 PE-17      Alternate Work Site                                     X
Personnel        PS-1       Personnel Security Policy and Procedures                X
Security         PS-2       Position Categorization                                 X
(PS)             PS-3       Personnel Screening                                     X
                 PS-4       Personnel Termination                                   X
                 PS-5       Personnel Transfer                                      X
                 PS-6       Access Agreements                                       X
                 PS-7       Third-Party Personnel Security                          X
                 PS-8       Personnel Sanctions
System and       SI-1       System and Information Integrity Policy and             X
Information                 Procedures
Integrity (SI)   SI-2       Flaw Remediation                                        X
                 SI-3       Malicious Code Protection                               X
                 SI-4       Intrusion Detection Tools and Techniques                X
                 SI-5       Security Alerts and Advisories                          X
                 SI-6       Security Functionality Verification
                 SI-7       Software and Information Integrity
                 SI-8       Spam and Spyware Protection                             X
                 SI-9       Information Input Restrictions
                 SI-10      Information Input Accuracy, Completeness, and
                            Validity
                 SI-11      Error Handling
                 SI-12      Information Output Handling and Retention




                                             44
                                                                                 APPENDIX II

                             NIST SP 800-53 Control                                Sample of
     Family            No.                            Name                         Controls
                                                                                    Tested
                                      Technical Control Class
Identification and   IA-1       Identification and Authentication Policy and          X
Authentication                  Procedures
(IA)                 IA-2       User Identification and Authentication                X
                     IA-3       Device Identification and Authentication
                     IA-4       Identifier Management                                 X
                     IA-5       Authenticator Management                              X
                     IA-6       Authenticator Feedback                                X
                     IA-7       Cryptographic Module Authentication
Access Control       AC-1       Access Control Policy and Procedures                  X
(AC)                 AC-2       Account Management                                    X
                     AC-3       Access Enforcement                                    X
                     AC-4       Information Flow Enforcement
                     AC-5       Separation of Duties
                     AC-6       Least Privilege                                       X
                     AC-7       Unsuccessful Login Attempts                           X
                     AC-8       System Use Notification                               X
                     AC-9       Previous Logon Notification
                     AC-10      Concurrent Session Control
                     AC-11      Session Lock                                          X
                     AC-12      Session Termination                                   X
                     AC-13      Supervision and Review – Access Control
                     AC-14      Permitted Actions w/o Identification or               X
                                Authentication
                     AC-15      Automated Marking
                     AC-16      Automated Labeling
                     AC-17      Remote Access                                         X
                     AC-18      Wireless Access Restrictions
                     AC-19      Access Control for Portable and Mobile Systems
                     AC-20      Personally Owned Information Systems
Audit and            AU-1       Audit and Accountability Policy and Procedures        X
Accountability       AU-2       Auditable Events                                      X
(AU)                 AU-3       Content of Audit Records                              X
                     AU-4       Audit Storage Capacity                                X
                     AU-5       Audit Processing                                      X
                     AU-6       Audit Monitoring, Analysis, and Reporting             X
                     AU-7       Audit Reduction and Report Generation
                     AU-8       Time Stamps                                           X
                     AU-9       Protection of Audit Information                       X
                     AU-10      Non-repudiation
                     AU-11      Audit Retention                                       X




                                                 45
                                                                                              APPENDIX II

                                NIST SP 800-53 Control                                            Sample of
      Family              No.                                Name                                 Controls
                                                                                                   Tested
System and              SC-1        System and Communications Protection Policy and                  X*
Communications                      Procedures
Protection              SC-2        Application Partitioning
(SC)*                   SC-3        Security Function Isolation
                        SC-4        Information Remnants
                        SC-5        Denial of Service Protection
                        SC-6        Resource Priority
                        SC-7        Boundary Protection
                        SC-8        Transmission Integrity
                        SC-9        Transmission Confidentiality                                      X*
                        SC-10       Network Disconnect
                        SC-11       Trusted Path
                        SC-12       Cryptographic Key Establishment and Management
                        SC-13       Use of Validated Cryptography
                        SC-14       Public Access Protections
                        SC-15       Collaborative Computing
                        SC-16       Transmission of Security Parameters
                        SC-17       Public Key Infrastructure Certificates
                        SC-18       Mobile Code
                        SC-19       Voice Over Internet Protocol
Source: KPMG and OIG compilation of controls tested.
*These control families and controls were included in our survey work; however, the scope of our work was not
sufficient for us to provide an assessment of the control family.




                                                       46
                                                          APPENDIX III


                       ACRONYMS

       Acronym                          Definition
APM              Acquisition Policy Manual
BCP              Business Continuity Plan
BIA              Business Impact Analysis
C&A              Certification and Accreditation
CFO              Chief Financial Officer
CIO              Chief Information Officer
CIRC             Capital Investment Review Committee
                 Control Objectives for Information and related
COBIT®           Technology
COO              Chief Operating Officer
CPIM             Capital Planning and Investment Management
DIRM             Division of Information Resources Management
DIT              Division of Information Technology
DOA              Division of Administration
DOF              Division of Finance
EA               Enterprise Architecture
FIPS PUB         Federal Information Processing Standards Publication
FISMA            Federal Information Security Management Act
FMFIA            Federal Managers Financial Integrity Act
GAGAS            Generally Accepted Government Auditing Standards
GAO              Government Accountability Office
HSPD             Homeland Security Presidential Directive
IATO             Interim Authorization to Operate
IBM              International Business Machines
ID               Identification
IDS              Intrusion Detection System
IG               Inspector General
ISM              Information Security Manager
ISS              Information Security Staff
IT               Information Technology
KPMG             KPMG LLP
LAN/WAN          Local Area Network/Wide Area Network
NIST             National Institute of Standards and Technology
OIG              Office of Inspector General
OMB              Office of Management and Budget



                             47
                                                  APPENDIX III


     Acronym                         Definition
PIA            Privacy Impact Assessment
PIV            Personal Identity Verification
POA&M          Plan of Action and Milestones
RUP®           Rational Unified Process®
SDLC           System Development Life Cycle
SP             Special Publication
ST&E           Security Testing and Evaluation
U.S.C.         United States Code




                           48
                                                                            APPENDIX IV


                           GLOSSARY OF TERMS

              Term                                        Definition
Access Controls            The ability to ensure that system resources can be accessed only by
                           authorized users in authorized ways.
Adequate Security          Security commensurate with the risk and magnitude of the harm
                           resulting from the loss, misuse, or unauthorized access to or
                           modification of information.
Audit Trail                An audit trail is a series of records of computer-related events about
                           an operating system, an application, or user activities. An
                           information system may have several audit trails, each devoted to a
                           particular type of activity. The terms audit trail and audit log are used
                           synonymously in this report.
Auditable Event            An event is any action that happens on a computer system. Examples
                           include logging into a system, executing a program, and opening a
                           file.
Biometrics                 One of various technologies that utilize behavioral or physiological
                           characteristics to determine or verify identity. For example, a
                           fingerprint scan is a commonly-used biometric.
Firmware                   The programs and data components of a cryptographic module that
                           are stored in hardware within the cryptographic boundary and cannot
                           be dynamically written or modified during execution.
Hotfixes                   A hotfix is a single, cumulative package that includes one or more
                           files that are used to address a problem in a product. Hotfixes address
                           a specific customer situation and may not be distributed outside the
                           customer organization.
Least Privilege            Refers to the practice of restricting a user’s access to only those
                           resources needed to perform official duties.
Log                        A log is a record of the events occurring within an organization’s
                           systems and networks. Logs are composed of entries that contain
                           information related to a specific event that occurred within a system
                           or network.
Mainframe Dataset          The term dataset is used to refer to files on an IBM mainframe
                           computer, typically stored on a direct-access storage device or
                           magnetic tape. The term pertains to IBM mainframe operating
                           systems.
National Institute of      A non-regulatory federal agency within the Department of
Standards and Technology   Commerce’s Technology Administration. As part of its
(NIST)                     responsibilities, NIST develops and publishes technical, physical,
                           administrative, and management standards and guidelines for the
                           cost-effective security and privacy of sensitive, but unclassified,
                           information in federal computer systems.
Object Code                Software program instructions compiled (translated) from source
                           code into machine-readable formats.
Routers and Switches       A router is a computer networking device that forwards data packets
                           toward their destinations through a process known as routing. A
                           network switch is a computer networking device that connects
                           network segments.
Source Code                A set of programming language instructions that must be translated to
                           machine instructions before the program can run.

                                          49
                                                                  APPENDIX IV


           Term                                 Definition
Test Scripts      Test scripts constitute those series of actions, keystrokes, tabs, mouse
                  clicks, etc. used to navigate through a single screen or a series of
                  screens in an application.




                                 50
